<html>
<title> - SURFACE TRANSPORTATION REAUTHORIZATION: LOCAL PERSPECTIVES ON MOVING AMERICA</title>
<body><pre>[Senate Hearing 113-399]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-399
 
 SURFACE TRANSPORTATION REAUTHORIZATION: LOCAL PERSPECTIVES ON MOVING 
                                AMERICA 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 15, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

89-804 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
CORY BOOKER, New Jersey
JOHN WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

RICHARD BLUMENTHAL, Connecticut,     ROY BLUNT, Missouri, Ranking 
    Chairman                             Member
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN WALSH, Montana



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 15, 2014.....................................     1
Statement of Senator Blumenthal..................................     1
    Prepared statement...........................................     1
Statement of Senator Blunt.......................................     4
    Prepared statement...........................................     4
Statement of Senator Wicker......................................    36

                               Witnesses

Hon. David R. Martin, Mayor, City of Stamford, Connecticut.......     5
    Prepared statement...........................................     7
Hon. Sly James, Mayor, City of Kansas City, Missouri.............    10
    Prepared statement...........................................    11
John Robert Smith, Chairman, Transportation for America..........    13
    Prepared statement...........................................    15
Paul S. Fisher, Vice Chair, Board of Trustees of CenterPoint 
  Properties Trust; Chair, Supply Chain Innovation Network of 
  Chicago (SINC); and Member, Coalition for America's Gateways 
  and Trade Corridors............................................    21
    Prepared statement...........................................    23
Raymond J. Poupore, Executive Director, National Infrastructure 
  Alliance.......................................................    25
    Prepared statement...........................................    27


                         SURFACE TRANSPORTATION

         REAUTHORIZATION: LOCAL PERSPECTIVES ON MOVING AMERICA

                              ----------                              


                         THURSDAY, MAY 15, 2014

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety, and Security,  
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:45 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Richard 
Blumenthal, Chairman of the Subcommittee, presiding.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. I'm going to convene this hearing, with 
apologies that we're going to have to interrupt, take a brief 
recess. As you may know, votes are underway, which is a good 
thing, and Senator Blunt and I will have to go back to vote on 
the next round of votes. So, our colleagues may be able to 
appear, or may not, but I think, in interests of your time and 
ours, we should get started.
    Without objection, I'm going to make my opening statement 
part of the record and simply say that this hearing is another 
step in a continuing effort to move forward with the surface 
transportation needs and challenges of our time.
    [The prepared statement of Senator Blumenthal follows:]

            Prepared Statement of Hon. Richard Blumenthal, 
                     U.S. Senator from Connecticut,
    It's an important week for transportation.
    Earlier today, the Senate Environment and Public Works Committee 
marked up a surface transportation bill governing highways. That's just 
one piece of the puzzle--but it's a big piece.
    And in April, the president put forward his own proposal. That's 
the first time that has happened in his administration. This all shows 
that many are eager to address our transportation needs.
    There's a lot of action these days because we're at a critical 
place.
    The current surface transportation bill, MAP-21, expires at the end 
of September.
    Moreover, the Highway Trust Fund (HTF), which supports the 
country's vast highway and transit network, is expected to go insolvent 
even sooner--as early as the end of August. At that point, state DOTs 
and transit agencies will collectively begin facing a shortfall of 
billions and will have to shelve projects and forego rebuilding needs. 
This is increasingly known as the highway cliff.
    Like many other states, Connecticut will have to make tough 
decisions if funding runs short in August. And this happens right as we 
enter the beginning of the busy summer construction season when tens of 
thousands of constructions workers expect to get out there to re-build 
and repair our transportation network.
    So it's critical that we act soon.
    We can do this. We can act. For decades we've done so--dating back 
to the Eisenhower administration and even before that--we've seen the 
Federal Government make transportation investments a priority. We've 
shown the world what it means to have first-class roads, bridges, 
tunnels, ports and railroads. We've shown other countries how it can be 
done.
    But our attitude has shifted. For some reason, we're not doing that 
any more. We're no longer leading the world. Rather, we're now looking 
to China and elsewhere as they become the ones who are build the big 
projects with a grand vision and an eye to the future.
    Still, our needs are as real as ever. Our bridges are crumbling. 
Our roads are rife with potholes--especially after this past winter.
    And congressional inaction only exacerbates these problems. It 
breeds uncertainty and prevents communities from engaging in long-term 
planning. It disrupts growth and project development. We can't keep 
kicking the can down the road with short-term measures. We need a long-
term approach that leads to real investment--not stop-gap solutions (in 
fact there have been more than two dozen of those in the past five 
years)--rather than simply avert one crisis after another of Congress' 
own creation.
    Congressional inaction also just serves to shift the burden to 
others to fund our roads, bridges, transit systems, and rail networks. 
And this way of funding is incredibly inefficient.
    The fundamental point here is that the Federal Government needs to 
continue to lead the way in making the investments our country and 
economy demand.
    Our infrastructure is the foundation of our society. It props up 
our prosperity.
    It's just like a house. Any responsible homeowner needs to maintain 
the roof, the pipes, the paint. And in maintaining a house, we need to 
use the latest technology.
    But as I noted, our roads and bridges and rail systems are 
deteriorating. And we're relying on outdated technology to move people 
and freight where it needs to go.
    Take our country's Northeast Corridor. This critical corridor sees 
more than 2,000 trains a day. Nearly 800,000 commuters depend on it 
daily to get to work. The New Haven Line in my state and a major part 
of the corridor has over two dozen bridges--including five major 
moveable bridges and all but one of these needs to be replaced or 
rehabilitated in order to address reliability and capacity problems. In 
fact, the oldest of these bridges, the Norwalk River Bridge, was 
constructed in 1889. Elsewhere on the corridor, we're seeing other 
decaying bridges and tunnels that are also well over a hundred years 
old. And Super Storm Sandy didn't do the corridor any favors. Rather, 
it accelerated what was an already urgent need to replace the tunnels 
connecting New York with New Jersey and points south.
    This is symbolic of places throughout the country, especially in 
dense, urban areas where tremendous growth is expected in the decades 
to come. But no matter where, there is an endless list of places where 
basic investments would yield enormous results.
    Going forward, we need to invest in the projects that matter most--
and we need to do so across all modes.
    We need to focus on highways. And transit. But also rail. And 
ports. And the bottlenecks and lost opportunities that are choking our 
commerce and holding us back.
    There were many interesting ideas in the President's budget along 
these lines, one of which was a Transportation Trust Fund--a TTF. That 
fund would include highways, transit--and also Amtrak and passenger 
rail programs. The fund would include a rail account to support Amtrak 
and public rail assets. The proposal would authorize $9.5 billion for 
the Passenger Rail Service Program in order to provide continued 
support to Amtrak so that Amtrak would no longer have to endure the 
discretionary nature of the Congressional appropriations process. The 
administration's proposal would also authorize $9.55 billion for a Rail 
Service Improvement Program to develop passenger rail corridors and 
advance rail plans. This program would also be housed within the TTF.
    That's refreshing--and a step in the right direction. And an idea I 
can get behind.
    I've pushed for a similar initiative, a Rail Trust Fund, in order 
to make sure we have dedicated revenues for our country's rail system--
just like our highways do.
    But regardless of how we do it--we need to provide passenger rail 
with dedicated, multi-year funding source will dramatically help to 
improve Amtrak and modernize the Northeast Corridor and other rail 
corridors throughout the Nation. Because our rail infrastructure is as 
critical as our roads are and we need to recognize that reality. While 
we may have one transportation system, there are many modes that 
comprise it, and if one fails they're all affected and we all end up 
hit by the gridlock.
    And I'm open to other funding solutions. There are many attractive 
infrastructure bank proposals under discussion now. And there are 
interesting ideas out there to make TIFIA help even more states and 
localities.
    But we need to invest where it matters.
    And investing in our infrastructure means investing in the Federal 
Rail Administration, the NTSB and safety oversight agencies, too, and 
making sure they have the resources to carry out their mission. We saw 
what sequester and a government shutdown can do when these critical 
watchdogs are off the job.
    And I want to make sure any reauthorization package doesn't neglect 
these issues either. That's why I intend to introduce a rail safety 
bill in the comings weeks as part of this committee's reauthorization 
efforts. The bill will focus on increasing inspections, improving 
safety technology, improving the safe transportation of crude oil, 
addressing fatigue, and attempt to address the funding issues I've 
raised. Some of this is will require a longer conversation on another 
day, but the key point is we have critical infrastructure needs--and 
those include rail--and if we don't address them, our country suffers.
    Businesses fail. In Connecticut and elsewhere, businesses can't get 
their goods to market. Or goods sit in needless traffic congestion.
    On the Northeast corridor, for example, a one-day loss of service 
could cost the economy nearly $100 million per day. If the corridor is 
unable to accommodate future growth, the region's highway and aviation 
systems could incur an additional $1.2 billion in annual costs could be 
incurred by the year 2025.
    But as I mentioned earlier, there's a threat that's right at our 
doorstep. Earlier this week Secretary of Transportation predicted 
700,000 Americans could lose their job in the next year.
    All of this stifles our country's competitiveness and ability to 
trade with other countries.
    This is basic economics, however, the lesson seems to be lost on 
some these days.
    Today we get several local perspective on the reasons we need to 
invest; the need to invest in the projects that matter most; and we 
hear from local experts about what happens if lose sight of our vision.
    I look forward to hearing from our witnesses. One of whom is David 
Martin, the Mayor of Stamford, Connecticut. Like many cities in 
Connecticut, Stamford has been a big success story in recent years. The 
City of Stamford shows what happens when we make smart investments in 
transportation. Businesses take advantage of the new transportation 
options, they relocate and grow and thrive. Stamford is a very 
different place today than it was 20 years ago--and improved 
transportation is a major reason why. The Federal Government has played 
a key role in this development, for example, with the award of a $10 
million TIGER grant to the city in 2010 to enhance the Stamford 
Transportation Center--a once outdated facility that sees 225 commuter 
trains per day. We need to see more partnerships from the Federal 
Government like that--not less.
    And I now look forward to Mayor Martin and the rest of the 
witnesses speaking more to these important issues.

    Senator Blumenthal. Any surface transportation 
reauthorization practice has to be multimodal and has to 
address rail priorities. That is the issue that brings us here. 
And part of investing in rail is making sure it has dedicated 
funding in an account within the new Transportation Trust Fund, 
as the President's proposed, or from a Rail Trust Fund, as I've 
proposed. And Senator Blunt and I and others--he's really taken 
the initiative--have proposed a new method of funding, here. 
Obviously, resources are critical. Making the right investments 
and the right choices helps to improve safety and reliability.
    Today or tomorrow, Metro-North will be submitting its 
response to the Deep Dive investigation that was conducted by 
the Federal Railroad Administration. I'm going to be looking 
forward to receiving it. But, clearly, Federal agencies and 
watchdogs have been lax or laggard, as well, in their effort, 
in many respects. So, the emphasis has to be not only on the 
work that you're doing at the local level, but also on what the 
Federal Government can do to promote and advance the cause of 
safety and reliability in rail transportation.
    We have a great panel, and I will introduce them after I 
give Senator Blunt, the Ranking Member of the Committee, an 
opportunity to make some opening comments.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Well, Chairman, thank you.
    I have a statement, I'll put it in the record as well, in 
interest of time.
    Certainly, the opportunities we have to grow jobs, to make 
things, to manufacture, to connect with the worldwide 
marketplace aren't there if we don't have the infrastructure 
that supports that. I think this is a critical moment as we 
look forward to where we are next year, but, just as 
importantly, where we're going to be to take advantage of the 
opportunities 20 years from now that will be there if we make 
the right infrastructure decisions and a couple of other 
decisions, and won't be if we don't. You know, if you outgrow 
your capacity to move--to make your economy move forward, your 
economy doesn't move forward.
    So, I'm glad that this panel's here. We look forward to 
their testimony and advice.
    And I'll turn this back over to you.

    Prepared Statement of Hon. Roy Blunt, U.S. Senator from Missouri
    I want to thank everyone for coming here today, I appreciate you 
making the time to speak with us.
    I want to especially welcome the Mayor of Kansas City, Sly James, 
for being here.
    I am proud to be Ranking Member of this subcommittee, which 
oversees issues that are so integral to the state of Missouri.
    The Commerce Committee does work on all the transportation modes, 
not just the highways.
    That includes the railroads, waterways, aviation, and even 
pipelines.
    For a state like Missouri, this is critical work.
    When you look at a map of the major railroads, interstate highways, 
and inland waterways, you tend to see all these modes converge right 
over our state.
    Kansas City is one of our primary transportation hubs.
    The city is located at the crossroads of some of the Nation's most 
strategic highways and interstates, it is the second largest rail hub 
in the nation, and it boasts the Port of Kansas City located near the 
confluence of the Missouri River and Kansas River.
    Kansas City is also home to several intermodal centers, one of 
which is on the southern edge of Kansas City--the CenterPoint-Kansas 
City Southern Railroad Intermodal Center.
    I am pleased that Mr. Fisher is here today from CenterPoint, and 
will be interested to hear his take on freight issues.
    Obviously, Kansas City demonstrates the importance of multiple 
transportation modes to the efficient movement of freight.
    Likewise, Kansas City is looking at intermodal projects that can 
help move passengers more efficiently.
    The city is identifying opportunities for a downtown streetcar and 
commuter rail transit services as aspects of the region's long range 
transportation plan.
    I look forward to hearing from both Mayors and Mr. Smith on how a 
multi-modal transportation network--which includes passenger rail--is 
integral for cities to attract residents.
    Generally, we need to look at our existing transportation system 
and identify the projects that would give us the biggest bang for our 
buck to spur economic growth and create jobs.
    Of course, all of this is incumbent upon the long-term and 
sustainable funding for our transportation infrastructure.
    Infrastructure has always been a vital element of the economic 
strength of the United States and a key indicator of our international 
leadership.
    More and more, countries are becoming increasingly efficient in 
moving goods and connecting manufacturers and consumers with 
international markets.
    We need to continue investing in our own infrastructure to make 
sure we stay ahead of this phenomenon.
    Thank you again for being here today and I look forward to your 
testimonies.

    Senator Blumenthal. Thank you, Senator Blunt.
    Let me just introduce, very briefly, the panel, and then 
we'll turn to Mayor Martin for his comments.
    David Martin is the Mayor of Stamford, and has a long 
career and distinguished record in public service in local 
government as a member of our Board of Representatives, and 
then President of it, and was elected to serve a 4-year term as 
Mayor of the City of Stamford, and has taken a lead in 
transportation.
    Sly James, Major of Kansas City, Missouri, we welcome you 
here. I know also of your long and distinguished record of 
public service in Kansas City to your community and to the 
state of Missouri.
    John Robert Smith, Co-Chair of Transportation for America, 
we welcome your expertise and your experience in this area, and 
your guidance, along with the rest of this panel, in moving 
forward, helping us to mobilize support for rail 
transportation.
    And Paul Fisher, who's Chair of the Supply Chain Innovation 
Network of Chicago and Vice Chair of the Board of Trustees of 
CenterPoint Properties Trust, we're looking forward to your 
informing us more fully about the impacts of rail 
transportation, as Senator Blunt so well said, on our economy, 
economic growth, and job creation, moving the goods and people 
that are essential to our economy.
    And Raymond Poupore, Executive Director of the National 
Infrastructure Alliance, likewise your long experience in this 
area and your perspective on how transportation is served by 
the investment we can, and must, make; again, persuading our 
colleagues that these investments are critically important to 
our future.
    So, Mayor Martin, the floor is yours.

    STATEMENT OF DAVID R. MARTIN, MAYOR, CITY OF STAMFORD, 
                          CONNECTICUT

    Mr. Martin. Chairman Blumenthal, Ranking Member Blunt, 
thank you for inviting me here today to speak about this 
important issue of transportation infrastructure.
    My name is David Martin. I've been serving since December 1 
as the Mayor of Stamford, Connecticut. Stamford is the third 
largest city in Connecticut, with over 125,000 residents, 
located approximately 30 miles outside of Manhattan. The city 
is home to one of the most diverse and vibrant communities in 
our country, and is the largest financial services district in 
the New York metro area outside of New York City. I am honored 
and proud to testify on behalf of the Stamford residents and on 
behalf of the broader population of people in Connecticut and 
the Northeast who depend on rail and who are seeking to build 
economic growth on a well-functioning transportation system.
    Today, I plan to discuss two areas: the importance of rail 
to the economic vitality of the region and the critical need 
for Federal investment in our rail infrastructure.
    Each day, over 125,000 passengers ride on the New Haven 
line of Metro-North Railroad, which is the 60-mile stretch of 
track between New York City, Manhattan, and New Haven, 
Connecticut. And it carries both commuters and long-distance 
travelers throughout the Northeast, including a key Amtrak stop 
in Stamford. Indeed, I took Amtrak today to come to this 
hearing.
    The Stamford Intermodal Transportation Center sees 225 
commuter trains, more than 1,000 buses, and tens of thousands 
of commuters each working day. And, while we are a suburb of 
New York, and many people think that we are a suburban town 
sending commuters into New York, Stamford is, in fact, a net-
inbound station, with more people arriving to work in Stamford 
than actually leaving our town to work in Manhattan or other 
cities.
    The New Haven line of Metro-North is the busiest rail line 
in the United States. In 2012, a total of 39 million passengers 
utilized the New Haven line, an all-time high. Projections show 
that ridership will increase to 57 million by 2030, roughly a 
50 percent increase in less than 20 years. And if we were to 
provide rail service equivalent to other industrialized 
nations, we would easily exceed a 50-percent increase in much 
less than 10 years.
    It plays a vital role in supporting the nearly three 
trillion dollar economy of the Northeast United States, and is 
a vital portion of the rail network that extends from 
Washington, D.C., to Boston. When rail service is effective, it 
provides economic benefits, better access to markets, 
employment, and increased investment. In fact, because of the 
valuable Federal, State, local, and private-sector investment 
in the Stamford Intermodal Transportation Center, including 
support from you, Senator Blumenthal, that you have helped 
provide, there is now $5 billion--and that's a ``b''--$5 
billion in mixed-use, sustainable, transitorian development 
taking place within a short walk of our transit center.
    Business in Stamford and throughout Fairfield County 
depends on rail. In Stamford, the vacancy rate for commercial 
buildings near the train station is half the commercial vacancy 
rate in other areas. We are unique, in that we not only have 
local residents depending on rail to commute to New York City, 
but we have employees coming to Stamford, as I said earlier.
    And when I meet with executives from these companies 
located in Stamford, they are all concerned about the 
reliability and future of rail service. Unreliable service, 
frequent breakdowns, and other complications threaten their 
growth, and it affects Stamford's ability to both attract and 
retain and grow businesses. It affects the quality of life for 
residents, especially considering the fact that it is the 
primary alternative to traveling on our roadways, which are 
among the most congested in the country.
    The Federal Government can have an immediate impact and 
safeguard the long-term vitality of the Northeast region by 
investing. And, while the return from this investment, or ROI, 
is astronomical, the scope of this investment, and the scope of 
the investment necessary, is more than what any one city or any 
one state can support.
    Despite this overwhelming and growing demand for rail 
service, we haven't made the necessary investments. The line 
was built in the 1840s, before the Civil War, and it is 
beginning to fail. In the past 2 years, the New Haven line has 
suffered from significant disruptions. In May 2013, a train 
derailment injured 76 people. In September 2013, a broken 
electrical feeder cable past its design life caused a power 
outage that hampered service for 2 weeks. In January 2014, 
riders were stranded on trains at the Grand Central Station for 
over 2 hours. And just this week, a fire at the Cos Cob 
switching control caused multiple days of delays.
    The line has been laden with frequent delays caused by 
malfunctioning bridges, signaling errors, and any number of 
other problems. There are, in fact, 134 bridges on the main 
line. Five of them are movable bridges that are rated in fair 
or poor condition. And, in fact, the youngest of those bridges 
was built over 100 years ago, in 1907. We had the bridge 
malfunction in Norwalk in January and October of 2011, and 
again this year. The Cos Cob Bridge malfunctioned this last 
December. And we have additional needs in our rail--in our 
infrastructure, both in signaling in the rail yards and the 
platforms and tracks.
    Under the leadership of our Governor, Dan Malloy, the State 
of Connecticut is committed to investing nearly $1 billion over 
the next 5 years, despite significant budget constraints. But, 
even with this level investment, it is estimated that an 
additional $3.6 billion is needed through 2020 to rebuild that 
rail infrastructure. Other nations are investing in bullet 
trains. We need to make the investment in our infrastructure, 
as well.
    In terms of the importance of this, it exceeds that of just 
Stamford or of Greenwich or Norwalk or Port Chester, in New 
York. The most successful nations in history have been defined 
by their ability to maintain and grow their transportation 
networks. The great empires of the Persians, the Chinese, the 
Inca, and particularly the Romans, were all known for their 
investment in roads. The great powers of Portugal, Spain, and 
Britain depended upon their mastery of navigation, ports, and 
seapower. In all cases, great nations' investments in 
transportation was well beyond the capacity of any single 
portion of that nation.
    And the United States as a great nation is no different. 
Our success and prosperity has been made possible, in large 
part, because of our commitment to our transportation networks, 
whether it was the Erie Canal, the transcontinental railroad, 
or our interstate highway system.
    I am here to request funding that can be used to help make 
the repairs to our passenger rail line and put us back on track 
toward safe, fast, and reliable service. I understand that 
these challenges will not be solved overnight, but I am asking 
for your partnership and your assistance to help prevent 
economic or safety catastrophes and safeguard the economic 
vitality of our region.
    Thank you again for your time and your attention this 
afternoon.
    [The prepared statement of Mr. Martin follows:]

          Prepared Statement of Hon. David R. Martin, Mayor, 
                     City of Stamford, Connecticut
    Chairman Blumenthal, Ranking Member Blunt, and members of the 
Subcommittee, thank you for inviting me here today to speak about such 
an important issue.
    My name is David Martin, Mayor of Stamford, Connecticut. Stamford 
is the third-largest city in Connecticut, with over 125,000 residents, 
and located approximately 30 miles outside of Manhattan. The city is 
home to one of the most diverse and vibrant communities in the country.
    I am honored and proud to testify on behalf of Stamford residents 
and the broader population of people in Connecticut and Northeast who 
depend on rail.
    Today, I plan to discuss two areas: the importance of rail to the 
economic vitality of the region and the critical need for Federal 
investment in our rail infrastructure.
Importance of Rail to our Economic Success
    Each day, over 125,000 passengers ride on the New Haven Line of 
Metro North Railroad, which is a 60-mile stretch of track between New 
York City and New Haven, Connecticut that carries both commuters and 
long-distance travelers throughout the Northeast. In 2012, a total of 
39 million passengers utilized the New Haven Line, an all-time high. It 
is the busiest rail line in the United States.
    The New Haven Line plays a vital role in supporting the nearly $3 
trillion economy of the Northeast United States and is a critical 
portion of the rail network that extends from Washington, D.C. to 
Boston.
    When rail service is effective, it provides economic benefits such 
as better accessibility to markets, employment, and increased 
investment. Businesses desire and depend on rail. In Stamford, for 
example, the commercial vacancy rate in buildings near the train 
station is about half that of the overall commercial vacancy rate in 
the city.
    Stamford is home to four Fortune 500 Companies and is the largest 
financial district in the New York Metro Area outside of New York City. 
We are unique in that we not only have local residents depending on 
rail to commute to New York City, but have employees depending on rail 
to commute to Stamford.
    In meeting with executives from these companies, they are 
universally concerned about the reliability and future of rail service.
    Unreliable service, frequent breakdowns, and other complications 
threaten their future growth and it affects Stamford's ability to both 
attract and retain new businesses. It also affects the quality of life 
for residents, especially considering the fact that rail is the primary 
alternative to traveling on our roadways, which are among the most 
congested in the country.
    Projections show that the populations of Connecticut and New York 
City will continue to grow and that ridership on the New Haven Line 
will increase from 39 million passengers to 57 million by 2030--a 
nearly 50 percent increase.
    We need to be able to support this growth.
    The Federal Government can have an immediate impact and safeguard 
the long-term vitality of the Northeast by investing in our rail 
infrastructure. The scope of the investment necessary is more than any 
one city or state can provide.
Need for Federal Investment
    Despite the overwhelming--and growing--demand for rail service, the 
government has not made the investments required in order to maintain 
the infrastructure.
    The line was built in the 1840s--before the Civil War--and believe 
it or not, some of that original rail infrastructure is still in use 
today. And it is beginning to fail.
    In the past two years, the New Haven Line has suffered from 
significant disruption:

  <bullet> May 2013: Train derailment and collision in Bridgeport that 
        injured 76 people.

  <bullet> September 2013: Broken electrical feeder cable, past its 
        design life, caused a power outage that hampered service for 
        two weeks.

  <bullet> January 2014: Riders stranded on trains and at Grand Central 
        Station for over two hours as a result of signaling glitches.

  <bullet> May 2014: Just this week, a fire at a Cos Cob switching 
        control house caused multiple days of delays.

    In addition, the line has been laden with frequent delays caused by 
malfunctioning bridges, signaling errors, and any number of other 
problems. It has been on the front page of the local newspaper every 
day this week.
    Severe weather in recent years has only expedited the line's 
deterioration.
    Funds are urgently needed to help revitalize the line and make 
repairs as soon as possible.

  <bullet> There are 134 bridges on the main line, including nine 
        moveable bridges (over water), and over half of these bridges 
        are rated in fair or poor condition.

  <bullet> Five of the movable bridges--required for boats to gain 
        access to Long Island Sound--are in dire condition. The 
        youngest bridge was built in 1907.

  <bullet> Repairs to the signal & communications system, platforms, 
        tracks, and rail yards are also necessary.

    The State of Connecticut, under the leadership of Governor Malloy, 
has committed to investing nearly $1 billion over the next five years, 
despite significant budgetary constraints. Even with this level of 
investment, it is estimated that an additional $3.6 billion is needed 
through 2020 to rebuild the rail infrastructure.
    That level of funding does not even begin to address discussions 
about high speed rail or a major expansion in line capacity; it is 
needed to simply catch up on deferred maintenance and allow the track 
to run as it was intended when first built in 1840s.
    The most successful countries in history have been defined by their 
ability to build, maintain, and grow their transportation networks.
    The United States is no different. Our success and prosperity as a 
nation has been made possible in large part because of our commitment 
to our transportation networks. Examples include the Erie Canal, 
transcontinental railroad, and our Interstate Highway System.
    I am here to request funding that can be used to help make repairs 
to our passenger rail line and put us on track towards safe, fast, and 
reliable service. I understand that these challenges will not be solved 
overnight, but I am asking for your partnership to help prevent 
catastrophe and safeguard the economic vitality of the region.
    I thank you again for your time and attention this afternoon.

    Senator Blumenthal. Thank you. Thank you, Mayor Martin.
    With apologies, Mayor James, we're going to go vote, and--
hopefully, vote twice--and then come back without another 
interruption. I may--we'll be right back.
    [Recess.]
    Senator Blunt. Well, we're going to resume the hearing, and 
I'm pleased to have my good friend, Mayor James, from Kansas 
City, here. He has been the Mayor for a couple of years now, 
off to a great start, taking a great city and making it better. 
And I enjoy working with him, and I'm particularly pleased, 
Chairman, that he's here.
    Senator Blumenthal. And my thanks to you, Mayor James, for 
being here. And I hope you will focus, as Mayor Martin has so 
eloquently and powerfully, on the impact of transportation. And 
one point that he mentioned, that the Federal Government has 
played a key role in the development in Stamford, for example, 
with the award of a $10 million TIGER grant to the city, in 
2010, to enhance the Transportation Center, once an outdated 
facility and the busiest rail artery in the country, the 
Northeast. And I know that you are very much involved in these 
transportation issues, as well.
    So, welcome, and thank you, and my apologies to all of the 
witnesses for the delay. I may have to duck out, in about 20-25 
minutes. I'm going to turn the gavel over to Senator Blunt. Not 
lightly do I turn it over to a Republican, but he's one of the 
good guys.
    [Laughter.]
    Senator Blunt. This is my big chance.
    [Laughter.]
    Senator Blumenthal. And I think there are limits as to how 
much, you know, harm he can do in----
    [Laughter.]
    Senator Blumenthal.--the space of 10 minutes while I'll be 
gone. So, in case I duck out, forgive me again.
    And I mean it sincerely, everything that you say, even 
though I may not hear it, will be on the record in--for the 
review of my colleagues as well as myself. So, it--there may be 
a very brief interval when I'm gone.
    Mayor James, thank you.

              STATEMENT OF HON. SLY JAMES, MAYOR, 
                 CITY OF KANSAS CITY, MISSOURI

    Mr. James. Thank you very much, sir.
    Chairman Blumenthal and Ranking Member Blunt, members of 
the Committee--and I also want to thank the people behind you, 
your staffs, the ones who toil in obscurity but without whom 
things probably would not get done at all--I'm the Mayor of 
Kansas City, Missouri. I'm a proud and lifelong Kansas Cityan, 
a constituent of Senator Blunt's and Senator McCaskill's, and 
an advocate for multimodal transportation planning.
    It's truly an honor to be here today to talk with you all 
about the transportation needs in cities like mine. The fact 
that the state of Missouri and the city of Kansas City sit in 
the middle of our country means that we have a unique 
transportation challenge, but we also have unique 
transportation opportunities.
    In Kansas City, we have 6,300 miles of lane miles of 
pavement. That means that when it snows, something every mayor 
who has ever lived in a snowbelt deals with, we actually plow 
one lane of road from Boston to San Diego and back every time 
it snows. Then there are 1,379 miles of interstate in the state 
of Missouri. And our metropolitan region has more freeway lane 
miles per capita than any other, and is one of five U.S. cities 
where four interstates connect and intersect.
    In addition, we have five major railroads that serve Kansas 
City. We are, in fact, the largest rail hub in the Nation, in 
terms of volume. We have 90 miles of track in the metropolitan 
area, and we have 4800 miles of railroad track in the state of 
Missouri.
    I've given you a lot of statistics, but those statistics 
are important to give perspective as to why multimodal 
transportation strategy is more than simply a good talking 
point, it's essential for the growth of our communities across 
the Nation, including my city, Kansas City. Thoughtful 
multimodal transportation strategies create economic 
development opportunities by connecting our Nation, by ensuring 
that workers can get to their jobs, by fostering economic 
activity along transportation lines.
    From a local standpoint, we've already seen substantial 
economic development along our streetcar line, which is only in 
the early stages of construction. In addition to a multimodal 
approach, the Federal Government's role in this effort is 
absolutely critical. Cities and states need policymakers to 
enact long-term, multi-year solutions to transportation issues. 
Short-term solutions often result in uncertainty, making 
planning and implementation costly and inefficient. The key to 
this certainty is obviously the issue of funding.
    Innovative solutions from Congress will go a very long way 
toward helping cities with long-term strategic planning. For 
example, my friend Senator Blunt is leading the way with his 
Partnership to Build America and BRIDGE Acts. These are 
cosponsored by another friend, Senator McCaskill, and those 
bills would fund infrastructure projects through repatriation 
and a new infrastructure bank. I applaud the outside-the-box 
approaches to finding creative solutions to funding critical 
projects and programs. I call that ``innovative leadership.'' 
And one thing that we must be in this country, in this day and 
age, is innovative. And I want to thank you, Senator Blunt, for 
those efforts, and Senator McCaskill will know of my thanks to 
her, as well.
    Whether it's a gas tax increase or a repatriation of 
funding for an infrastructure bank or a combination of 
potential solutions, we absolutely need more certainty, from 
the funding perspective. Also equally important to the 
multimodal and long-term strategy is increasing local 
flexibility in the decisionmaking process. Cities and states 
are keenly aware of local transportation needs of our citizens. 
Solutions to address these needs must include a comprehensive 
approach at the local level which includes roadways, mass 
transit, bike- and pedestrian-friendly routes, as well as 
freight routes. This is also why competitive Federal grant 
programs, like TIGER, are so vitally important. Cities and 
states can apply for that funding to target specific needs as 
part of an overall strategic approach. We have received a 
number of TIGER grants in Kansas City. Last year, we received a 
$20 million TIGER grant for streetcar, largest in the Nation, 
the only one for streetcars.
    Now, while MAP-21 made progress by providing states 
increased flexibility, our cities and local governments must 
have a strong seat at the decisionmaking table in how MAP-21 
should be implemented. It only makes sense, really, that those 
closest to the projects and the problems should have a voice in 
how to solve those problems and make those projects come to 
fruition. Trust me, the residents of Kansas City know how to 
reach me with their opinions. They do it all the time. They 
know that I know the pulse of the community.
    That being said, I feel strongly that local leaders can 
offer a tremendous amount of insight on transportation 
projects. I applaud this committee's close examination and 
efforts toward finding ways to tackle difficult issues. 
Transportation is not a partisan issue, it is a uniquely 
American issue. The roadways do not ask whether they're 
traveling through a Democratic or a Republican district. They 
simply travel, and they must be repaired and kept up. And it's 
one of those issues that will impact communities and 
individuals for generations to come. The decisions made here 
are decisions that have 50-year lifespans, minimum.
    So, I want to thank you, Chairman Blumenthal, Ranking 
Member Blunt, and members of the Committee, for this 
opportunity, and, like my colleagues here, I'll be happy to 
answer any questions that you may have at the appropriate time.
    Thank you very much.
    [The prepared statement of Mr. James follows:]

             Prepared Statement of Hon. Sly James, Mayor, 
                     City of Kansas City, Missouri
    Chairman Blumenthal, Ranking Member Blunt, and members of the 
Committee, I'm Mayor Sly James of Kansas City, Missouri.
    I'm a proud, lifelong Kansas Citian, a constituent of Senator 
Blunt's and an advocate for multimodal transportation planning.
    It's an honor to be here today to talk with you all about 
transportation needs in cities like mine.
    The fact that the State of Missouri, and the City of Kansas City, 
sits in the middle of our country means we have unique transportation 
challenges and opportunities.
    We have approximately 6,300 lane miles of pavement within our City 
limits, and there are 1,379 miles of Interstates in the State of 
Missouri.
    Our metropolitan region also has more freeway-lane miles per capita 
than any other, and is one of five U.S. Cities where four Interstates 
connect.
    In addition, five major railroads serve Kansas City, and we are the 
largest rail hub in the Nation in terms of volume.
    We have 90 miles of track in the metropolitan area, and there are 
4,800 miles of railroad tracks in the State.
    I've just given you a lot of statistics, but those statistics are 
important to give perspective as to why multimodal transportation 
strategy is more than a good talking point--it's essential for growth 
in communities across the nation, including Kansas City.
    Thoughtful, multimodal transportation strategy creates economic 
development opportunities by connecting our nation, by ensuring workers 
can get to their jobs, and by fostering economic activity along 
transportation lines.
    From a local perspective, we've already seen substantial economic 
development along our streetcar line, which is only in the early stages 
of construction.
    In addition to a multi-modal approach, the Federal Government's 
role is critical to this effort.
    Cities and states need policymakers to enact long-term, multi-year 
solutions for transportation issues.
    Short-term solutions result in uncertainty, making planning and 
implementation costly.
    Key to this certainty is the issue of funding.
    Innovative solutions from Congress will go a long way toward 
helping Cities with long-term strategy.
    For example, my friend, Senator Blunt, is leading the way with his 
``Partnership to Build America'' and BRIDGE Acts.
    Co-sponsored by another friend, Senator McCaskill, those bills 
would fund infrastructure projects through repatriation and a new 
infrastructure banks.
    I applaud these outside-the-box approaches to finding creative 
solutions for funding critical projects and programs.
    I also call that innovative leadership.
    Thank you for that, Senator.
    Whether it's a gas tax increase, a repatriation of funding for an 
infrastructure bank, or a combination of potential solutions, we 
absolutely need certainty from a funding perspective.
    Also, equally important to a multi-modal, long-term strategy, is 
increasing local flexibility and decision-making.
    Cities and states are keenly aware of the local transportation 
needs of our citizens.
    Solutions to address these needs must include a comprehensive 
approach at the local level, which includes roadways, mass transit, 
bike and pedestrian-friendly routes, as well as freight routes.
    This is also why competitive Federal grant programs like TIGER are 
so important--cities and states can apply for funding to target 
specific needs as part of an overall strategic approach.
    While MAP-21 made progress by providing states increased 
flexibility, our cities and local governments must too have a strong 
seat at the decision-making table.
    It only makes sense that the people closest to the projects should 
have a voice in the process.
    Trust me, the residents of Kansas City know how to reach me to 
express their opinions.
    Local leaders know the pulse of their communities.
    That being said, I feel strongly that local leaders can offer a 
tremendous amount of insight on transportation projects.
    I applaud this Committee's close examination and efforts toward 
finding ways to tackle these difficult issues.
    Transportation is not a partisan issue--it is an American issue.
    And it is one of those issues will impact communities and 
individuals for generations to come.
    Thank you again, Chairman Blumenthal, Ranking Member Blunt, and 
members of the Committee for this opportunity, and I will be happy to 
answer any questions you might have.

    Senator Blumenthal. Thank you very much, Mayor James.
    Mr. Smith, we'd be pleased to hear from you, and thank you 
very much for being here.
    I'm glad you mentioned, Mayor James, those bills for 
funding, which I am cosponsoring and supporting, as well. And I 
join you in thanking Senator Blunt for his leadership, Senator 
Bennett and Senator Warner, who have worked with us on them. 
Thank you.
    Mr. James. Thank you, sir.
    Senator Blumenthal. Senator Smith. I'm sorry. Mr. Smith.

 STATEMENT OF JOHN ROBERT SMITH, CHAIRMAN, TRANSPORTATION FOR 
                            AMERICA

    Mr. Smith. Chairman Blumenthal, Ranking Member Blunt, thank 
you for allowing me to testify today. And I appreciate your 
focus on transportation that is so critical to every aspect of 
daily life and to the economic growth of our cities, regions in 
this country.
    I am the Chairman of Transportation for America, a national 
alliance of local leaders--elected, business, and chamber, 
alike--that have come together to see that transportation 
investment at the Federal and the State level support local 
priorities. But, before coming to Washington, about 5 years 
ago, I also served for 16 years as the Mayor of my hometown of 
Meridian, Mississippi, and also served as Chairman of the Board 
of Amtrak. And I can tell you that every day my constituents in 
Meridian would stop me and tell me, whether it was at the 
grocery store or at church, about their transportation 
challenges. Yet, as Mayor, I was very frustrated to see so many 
limited choices of where I could go to for funding to meet the 
challenges of the people I serve.
    Now, the Federal money came to the states, and there was a 
small percentage that could be accessed by local government. 
But, even that was often flexed and used for state priorities, 
never making it to the locals. In fact, local leaders had 
almost no direct access to Federal dollars. Fortunately, there 
was a small program, called Transportation Enhancements, at the 
time, that the state couldn't access, so I had--I was able to 
access those funds and build Meridian's Union Station, which 
was the first multimodal transportation center in the South. 
The city put about $1.3 million in it. We coupled that with $5 
million in additional Federal and private-sector funds, and 
that project has leveraged $135 million of additional public/
private-sector investment within three blocks of that facility. 
Unfortunately, the Federal program that I used, which is now 
called Transportation Alternatives, has been shrunk, and states 
are now allowed to use half of those funds for State 
priorities, never getting to the locals.
    When we couldn't get our needs met by the Mississippi 
Department of Transportation, I could come here to my Senators 
and my Congressmen to get a transportation earmark to address 
the transportation needs of my citizens. That door is closed, 
as well, now. And I have been traveling across the country, 
talking to my former colleagues, these gentlemen here, and 
others, about these issues. And I can tell you, local leaders 
know firsthand the needs of their communities, and they also 
have the energy and the drive to address them, like these 
gentlemen do.
    In my written statement, you'll see several examples of 
innovative locally driven projects, one in Hartford, 
Connecticut. But, all those mayors share the same frustration 
that I experienced. They have little direct access to Federal 
funding and are often completely shut out of the process.
    Based on these discussions and issues I experienced 
firsthand, I have several recommendations:
    First, Congress must stabilize and increase revenues to the 
trust fund and make sure that those revenues are sufficient to 
support all modes, including highways, transit, and rail. If 
Congress does not provide additional revenues to the trust 
fund, there will be no new funding for transportation projects 
in the fiscal year beginning this October. Connecticut stands 
to lose $654 million. Missouri, almost a billion dollars. That 
means that the 60,000 bridges that need replacement or repair 
are going to have to wait while we travel over them. The aging 
buses will have to last even longer. And the people who would 
have been employed to build those and repair those bridges and 
manufacture those buses won't have those jobs. And those who 
use them to get to work or move goods won't have those 
opportunities. Local leaders from around the country--Metro 
Hartford Alliance, the Capital Region Council of Governments in 
Hartford, the City of Gainesville, Florida, the Seattle 
Metropolitan Chamber of Commerce--all support raising the 
needed revenues, and will support you in making those choices, 
whether that's by increasing and indexing the gas tax, adding a 
sales tax, imposing an oil fee, or other solutions. They 
support these actions because they know the adverse economic 
impact that their region would face if the Federal funding for 
transportation disappears.
    But, simply raising revenue isn't enough. With the 
expiration of PRIIA and MAP-21, you have a marvelous 
opportunity for policy changes to increase competition and give 
local governments more control and use of the funds. When 
moving people and goods, the solutions are multimodal. You 
can't expect any single mode to do it all. Therefore, freight 
investment should be targeted to the best solutions to address 
bottlenecks and improve last-mile connections within regions, 
regardless of the mode. Our national passenger rail network 
must be truly national. It must be maintained, expanded, and it 
must have dedicated funding to provide the transportation 
choices to our cities and towns, large and small, across the 
country. And local governments must have access to the 
financial tools to redevelop their rail stations and to 
economic drivers for their downtowns, as we did in Meridian.
    Transportation for America has a number of proposals we've 
developed to spur these innovative and multimodal solutions, 
and my written statement discusses these in detail. And I would 
encourage the subcommittee to consider them.
    The most important message I have to deliver today, though, 
is: the status quo is not acceptable. Mayors and other local 
leaders are doing everything they can to improve their 
transportation systems and keep their economies strong, which 
is the basis of a strong national economy. But, they need a 
Federal partner. Too often, they're shut out of this process. 
The Federal Government can, and must, do more to help local 
leaders meet the transportation needs that their citizens 
require.
    Thank you both.
    [The prepared statement of Mr. Smith follows:]

          Prepared Statement of John Robert Smith, Chairman, 
                       Transportation for America
    Chairman Blumenthal, Ranking Member Blunt, and members of the 
Subcommittee, thank you for the opportunity to testify today. I am John 
Robert Smith, Chairman of Transportation for America, an alliance of 
elected, business, and civic leaders from communities across the 
country, united to ensure that states and the Federal Government step 
up to invest in smart, locally-driven transportation solutions. We 
believe that these are the investments that hold the key to the 
economic competitiveness of cities, towns, and suburbs, and thus to the 
future economic prosperity of the Nation.
    I greatly appreciate the Subcommittee's invitation to testify on 
the important topic of surface transportation reauthorization. With the 
expiration of MAP-21 in a few short months, the members of this 
Subcommittee, along with your colleagues in both the Senate and the 
House, have the opportunity to reinvigorate the Federal transportation 
program in ways that will boost today's economy and ensure future 
prosperity for all Americans. Based on the discussions we have had with 
local leaders in cities and towns across the country, two key lessons 
have emerged loud and clear. First, local governments are working hard 
to find innovative solutions to their transportation challenges and in 
many cases are raising their own revenues to help meet the demand. 
Second, these communities need a strong and reliable Federal partner if 
they are to succeed. Unfortunately, existing Federal programs are not 
doing enough to support local efforts to maintain their existing 
infrastructure and prepare for the future, and often leave local 
governments out of the process altogether.
1. Local Leaders Are Developing Innovative Transportation Solutions 
        that Benefit the Economy and Improve Quality of Life
    Transportation has a direct effect on the strength of local 
economies and the quality of people's daily lives. Local leaders around 
the country understand that in order to remain competitive their city 
or county has to offer connectivity and mobility for residents and 
visitors, as well as for goods and materials. Workers need affordable 
and reliable connections to jobs; businesses need dependable and 
efficient ways to ship and receive goods. Americans of all generations, 
from college students to seniors, are looking for more transportation 
options to get them where they need to go.
    Increasingly, businesses are seeking to locate in places that can 
provide a high quality of life for both executives and employees. Young 
college graduates are looking for places to settle where they can have 
transportation options other than driving. A recent poll released by 
the Rockefeller Foundation and Transportation for America found that 
more than half (54 percent) of millennials surveyed say they would 
consider moving to another city if it had more and better options for 
getting around, and 66 percent say that access to high quality 
transportation is one of the top three criteria in deciding where to 
live next. The mayors and local leaders with whom I have spoken agree 
that these are the factors that lead to economic success--residents who 
want to remain, businesses and young people who want to move in. They 
further agree that a multimodal transportation network--including 
roads, transit, passenger rail, and bicycle and pedestrian facilities--
is a key component of their ability to retain and attract residents.
    I have seen this first-hand: before I came to Transportation for 
America, I was the Republican Mayor of my hometown of Meridian, 
Mississippi, for sixteen years and a member of the Amtrak Board of 
Directors from 1998-2003 (Chairman from 2002-2003). I have spent much 
of my career finding innovative ways to fund and support transportation 
improvements. I led the effort to turn our historic Meridian Union 
Station into the South's first multimodal transportation center, which 
proved to be a catalyst for transforming our downtown, increasing 
public transportation ridership, and helping to generate millions of 
dollars in private economic development in the surrounding 
neighborhoods. Historic buildings were renovated; people came back 
downtown to both live and work, and also for entertainment. Our city 
center was revived, not only for residents but for those that lived in 
the surrounding 11-county region. The city's investment of $1 million 
leveraged an additional $5 million in federal, state, and private 
sector dollars, which resulted in $135 million in economic development.
    Meridian may have been among the first, but it is not the only 
community to have used its rail station as a focal point for economic 
development. Mayor Chris Koos of the Town of Normal, Illinois 
spearheaded the construction of a multimodal transportation center as 
the anchor for redevelopment of an entire neighborhood, Uptown Normal, 
and creation of a city center. Using a Federal TIGER grant, local 
taxes, and tax-increment financing, the city built a new city hall and 
multimodal center to replace an aging Amtrak station, along with other 
infrastructure needed to attract private development. As a result, 
Uptown Normal is now a vibrant neighborhood with residential, 
commercial, and entertainment opportunities. Thus far, investment in 
the transportation center has generated $220 million of economic 
development in the Uptown Normal district, including two new hotels.
    Transportation is not one-size-fits-all, and other local leaders 
have developed different types of transportation projects to fit their 
local needs. The Nashville metropolitan region is facing some of the 
worst congestion in the Southeast, and its population is projected to 
continue growing at a rapid pace. Rather than waiting until the region 
reaches gridlock and commuters reach the boiling point, Nashville--with 
strong leadership from the business community and the Nashville Chamber 
of Commerce--is investing in greater transportation options for the 
region. Specifically, Nashville is building bus rapid transit (BRT) 
through the heart of the city to connect riders with the numerous 
employers in the area. The BRT system will enable more people to move 
into this busy corridor without increasing traffic. Also important to 
Music City is the benefit the BRT system will bring to bolstering 
tourism, a major industry in Nashville. While the region consists of a 
variety of suburban areas and smaller towns as well as the central 
city, the entire region has united around this transportation vision. 
Ken Moore, the mayor of Franklin, a small city on the outskirts of 
Nashville, has observed that ``transportation is a regional issue,'' 
and even though the first phase of the BRT system would not serve his 
city, Mayor Moore is a strong supporter of the project. He sees it as 
``the beginning of bolder transit initiatives in our region to address 
the congestion on our highways and to improve people's ability to get 
around.''
    Locally driven transportation projects can also play a critical 
role in town and city centers by ensuring employers have access to top 
talent across a region. In the Chairman's home state of Connecticut, 
the City of Hartford is leading a project to redesign downtown streets 
to better connect major job centers with a growing multimodal 
transportation hub at Union Station. Downtown Hartford is an economic 
engine with more than 110,000 jobs, including 80,000 jobs within one-
half mile of Union Station. But employers, including several Fortune 
500 businesses, were concerned that inadequate connections in the 
downtown core were limiting access to top employees. This project will 
boost the downtown economy and make these jobs more accessible to 
workers across the region through relatively small improvements: 
remarking streets, adding new crosswalks and wayfinding signs, and 
retiming traffic lights to improve transportation connections through 
the downtown core. The City of Hartford was able to partner directly 
with the Federal Government to undertake this innovative project 
through the TIGER grant program; the project was awarded a $10 million 
grant in 2012.
    Local communities are increasingly raising their own revenues to 
help fund these transportation investments. According to the Center for 
Transportation Excellence, which tracks local ballot measures, 
transportation measures pass at twice the rate of all other ballot 
measures, and this success holds true for both large places and small 
ones. In Salt Lake City, for example, a 2007 sales tax measure passed 
with a two-thirds majority to support further development of the 
region's light rail, bus, and commuter rail systems to keep up with the 
rising demand on those systems. In 2013, Missoula, Montana voters 
supported a new property tax measure to improve their local bus 
service. Many of these measures passed with the support of a broad 
coalition of stakeholders, including local businesses, hospitals, 
universities, and community-based groups. These local actions 
underscore the momentum and commitment that exists today among local 
leaders to improving transportation options in their communities. But 
they cannot do it alone. While local revenues are playing an 
increasingly important role, Federal dollars typically make up well 
more than half of transportation project budgets.
2. Congress Should Provide Stable and Dedicated Revenues For All Modes 
        of Surface Transportation
    The projects discussed above, and their associated economic 
benefits, would likely not have materialized if not for Federal 
support. But the gasoline tax that has sustained the Federal 
transportation program since the middle of the last century is no 
longer keeping up with investment needs. According to projections from 
the Congressional Budget Office, all of the gas tax revenues that are 
expected to come into the Highway Trust Fund in the next Fiscal Year 
will be needed to pay for commitments the U.S. Department of 
Transportation (USDOT) has already made to states, regions, and transit 
agencies. Without new revenues being added to the trust fund, USDOT 
will not be able to make any new commitments of funding for 
transportation in the coming Fiscal Year.
    Every region is this country has developed multi-year 
transportation plans that count on Federal funding being available in 
the future for important local projects. If Congress does not act to 
provide additional revenues for the Highway Trust Fund, these plans and 
projects would be stopped in their tracks, with real--and likely 
lasting--effects on the Nation's economy. Transportation for America's 
recent report on this issue, ``The End of the Road? The Looming Fiscal 
Disaster for Transportation,'' found that if nothing is done, 
communities across America can expect to see a $46.8 billion hole in 
their transportation budget for projects that would otherwise have 
begun next year. The breakdown of that number among the states 
represented on the Subcommittee is shown in Table 1.

                Table 1. Contract Authority States Stand to Lose in FY2015 (Highways and Transit)
----------------------------------------------------------------------------------------------------------------
             State                   Total Dollars                    State                   Total Dollars
----------------------------------------------------------------------------------------------------------------
Alaska                                     $530,948,095  Missouri                                 $1,017,454,027
Arkansas                                   $537,519,402  Montana                                    $421,688,246
California                               $4,874,210,701  Nebraska                                   $304,996,749
Connecticut                                $654,278,090  Nevada                                     $409,378,648
Florida                                  $2,210,614,868  New Hampshire                              $181,282,406
Hawaii                                     $210,909,824  New Jersey                               $1,570,130,769
Indiana                                  $1,036,206,363  South Carolina                             $703,867,293
Massachusetts                              $956,611,330  Texas                                    $3,787,141,049
Minnesota                                  $739,788,429  Washington                                 $907,772,105
Mississippi                                $498,547,291  Wisconsin                                  $826,022,133
----------------------------------------------------------------------------------------------------------------
Source: ``The End of the Road? The Looming Fiscal Disaster for Transportation,'' Transportation for America,
  April 2014, Table 2, http://www.t4america.org/maps-tools/fiscal-cliff-report/.

    Transportation for America has proposed an investment plan for the 
Nation's transportation fund that calls for an additional $30 billion 
per year to support all modes of surface transportation. We support 
revenue raising mechanisms such as an increase in the per-gallon 
gasoline tax plus indexing it to inflation, a sales tax on gasoline, or 
a per-barrel oil fee. Our plan also calls for creation of a new 
Transportation Trust Fund to replace the existing Highway Trust Fund 
that would provide dedicated and stable revenues for all modes, not 
only highways and transit but also intercity passenger rail and other 
surface transportation programs currently subject to annual 
appropriations. Providing dedicating funding for these modes is 
important not only to allow for long-term investments in equipment and 
infrastructure, but also to facilitate the use of innovative financing 
strategies, as private investors require long-term commitments, not 
promises that can be renegotiated every year.
    Transportation for America's revenue proposal has been endorsed by 
a number of local chambers of commerce, cities, and other 
organizations, such as the MetroHartford Alliance and the Capitol 
Region Council of Governments in Connecticut; the Newark Regional 
Business Partnership in New Jersey; the City of Gainesville and the 
Broward MPO in Florida; the Southern California Association of 
Governments; and the Seattle Metropolitan Chamber of Commerce. These 
entities have joined with us in calling for Congress to address the 
funding issue because inaction would be devastating for local 
transportation projects. In Boise, Idaho, for example, the urgently 
needed Broadway Bridge replacement project is at risk. The Broadway 
Bridge has the lowest structural rating of any bridge in the state, and 
given its degraded condition, could require weight restrictions or 
closure at any time. The $11.2 million project was scheduled for 2015, 
but with $10.4 million in Federal funds now uncertain to materialize, 
the project may not happen. This is just one of hundreds of projects 
important to local communities that could be threatened if Congress 
does not stabilize funding for transportation.
3. Federal Transportation Programs Should Be Refocused to Better 
        Support Local Needs.
    As discussed, local communities are working tirelessly to address 
their transportation challenges, but they need a strong Federal partner 
if they are to succeed. The reauthorization of MAP-21 provides an 
opportunity to refocus Federal programs to better support 
transportation needs at the local level. Based on discussions with 
civic, business, and elected leaders in communities throughout the 
country, Transportation for America has developed a set of policy 
reforms, based upon principles of competition, multimodalism, 
innovation, and local access to funds. The following sections address 
key proposals that we believe would be of particular interest to 
members of this Subcommittee.
a. Spur Local Initiative Through Competition and Incentives
    Normal, Illinois used a TIGER grant to attract private investment; 
the City of Meridian used funding from the old ``transportation 
enhancements'' program (now rolled into the Transportation Alternatives 
program, from which states can choose to shift half of the funding for 
other purposes). These funding sources are flexible--multiple modes are 
eligible--and are available to local governments for locally-developed 
projects. Unfortunately, these programs represent only a tiny 
percentage of Federal transportation dollars, far less than is needed. 
The demand is clear: in the five past rounds of TIGER grants, USDOT has 
received over 5,000 applications requesting over $114 billion, for just 
$3.5 billion in available funding.
    Local leaders need the tools and resources to invest in innovative 
transportation solutions that are critical to their economic 
competitiveness. Through the consolidation of programs in MAP-21 
virtually all competitive Federal funding opportunities were 
eliminated, making it harder for local communities to directly access 
Federal funds. These were the same programs to which communities looked 
to help fund their innovative transportation projects. Formula programs 
now make up nearly 93 percent of all Federal highway funding, an 
increase of 10 percent from SAFETEA-LU. Local and regional entities are 
provided direct access to less than 15 percent of all authorized 
highway funds from MAP-21. Additionally, the primary source of funding 
for local transportation projects, the Surface Transportation Program 
(STP), had more than $5.0 billion of new responsibilities added to it 
by MAP-21, while that program was only increased by $1.2 billion. As a 
result, states are facing increased pressure to use STP funds to 
address state needs, rather than local priorities.
    Competitive programs, for which all modes are eligible and to which 
local governments can directly apply, are a promising model to address 
these needs. Competition spurs innovation as communities work harder to 
create projects that stand out, achieve multiple goals, and attract 
both public and private matching funds.
    Transportation for America has proposed several approaches to 
improve local access to Federal funds. First, a national competitive 
program in which communities from around the Nation compete with each 
other would both stimulate innovation and provide an option for local 
communities to gain funding for projects that are otherwise hard to 
fund under existing formula programs. Open to road, rail, transit, and 
port projects, a national competitive program could target funds to 
projects with the greatest return on investment, regardless of mode.
    A complementary approach, which could be done in addition to a 
national program, is an in-state competition using a portion of a 
state's highway funds. This proposal, championed in the Senate by 
Senators Wicker and Booker and in the House by Reps. Rodney Davis (R-
IL) and Dina Titus (D-NV), would allow local and regional governments 
to build infrastructure that provides better opportunities for local 
businesses and residents to prosper. Under this proposal, states will 
conduct annual competitions for a small portion of Federal formula 
funds. Projects would be selected by a panel with equal representation 
from state departments of transportation and local jurisdictions, as 
well as other stakeholders, based upon a set of criteria aimed at 
improving the transportation system, promoting innovation, and spurring 
economic development.
    I encourage the Subcommittee to consider these approaches as well 
as others that would achieve the goal of increasing local access to and 
control over Federal transportation funds. These reforms will help to 
ensure that our limited Federal dollars are used to provide the highest 
return on investment.
b. Reduce Freight Bottlenecks and Address Last-Mile Connections
    Efficient goods movement is critical to economic growth. However, 
throughout our transportation network there are bottlenecks that slow 
down goods movement. Congestion increases logistics costs on businesses 
and undermines productivity. Freight takes longer to get through many 
metropolitan regions than to traverse long-haul freight corridors: it 
can take 48 hours to move goods from Los Angeles to Chicago, and 
another 30 hours just to cross the Chicago metropolitan region.
    Over the past ten years, we have a seen a significant growth in 
domestic freight movement, especially freight rail. Specifically, 
between 2002 and 2012 there has been a 17 percent growth in ton-miles 
of freight rail. Just last year, freight rail's intermodal volume 
totaled 12.8 million containers and trailers, up 4.6 percent over 2012. 
Any solution to improve freight movement needs to be multimodal and 
address both long-haul routes and last-mile connections within cities 
and regions, which can be disproportionately costly and time-consuming. 
For example, a truck that misses a 15-minute delivery window can 
disrupt the production or merchandising of goods by the recipients, 
interfere with other trucks maneuvering into tight spaces and scheduled 
door capacity at customer docks, and in some cases may even be turned 
away.
    Currently, our Federal surface transportation program does not 
recognize the multimodal nature of freight movement. Instead, the 
program looks at highway, rail, and water infrastructure for freight 
separately. To improve freight movement, the next transportation 
reauthorization should invest in multimodal solutions. A multimodal 
freight transportation system recognizes the market demand for 
intermodal trips that improve efficiency and reliability and reduce 
costs. It recognizes the intersection between modes of transportation--
whether it is from rail to truck, water to rail, or water to truck to 
rail. The next bill should direct funds to projects that will reduce 
bottlenecks and address last-mile connections through investments in 
all appropriate modes.
    The next bill should also incentivize and support regional freight 
planning efforts, particularly with regard to first-and last-mile 
connections, which are of particular importance to local communities. 
In Mississippi, a lot of timber is shipped by rail. But to get to the 
rail yards, the timber first has to move by truck. As you can imagine 
trucks carrying timber to load onto freight rail causes wear and tear 
on our roadways, and also caused concern for my constituents who did 
not enjoy sharing our city's streets with timber trucks. As Mayor, I 
worked with the city staff to identify key routes through the city, and 
then designated specific roadways that could carry the timber trucks. 
This plan resulted in improved efficiency for the trucks as well as 
other drivers, who could avoid the truck routes if they so chose. This 
type of effort is not unique to Meridian. Our much larger neighbor to 
the north, New York City, has also implemented this type of program. 
The Federal Government should recognize the value of these planning 
efforts and encourage other communities to undertake them.
    Finally, MAP-21 required the Department of Transportation to 
designate up to 27,000 miles of existing interstate and other roadways 
as the Primary Freight Network to help states direct resources toward 
improving freight movement. Reauthorization should build on this 
provision by expanding the Primary Freight Network to include critical 
rail corridors, waterways, and connections to ports, as well as 
designating the urban corridors that are critical to freight movement.
c. Maintain and Expand the National Passenger Rail System with Stable 
        and 
        Dedicated Funding
    Another issue of great importance to local communities is the 
future of intercity passenger rail. Americans today are using intercity 
passenger rail in record numbers. For smaller communities no longer 
served by air or intercity bus, rail provides the critical connection 
to jobs, medical centers, and universities in larger metropolitan 
areas. The national rail system increases economic activity and 
supports economic development efforts in communities across the 
country. For example, three years after the Downeaster service from 
Boston to Portland started, researchers found more than $15 million in 
annual business sales in Maine and New Hampshire attributable to the 
rail service.\1\ A study of the Empire Builder's impact on Montana 
found that direct spending in Montana by Amtrak and riders from out of 
state totaled between $5.3 million and $5.7 million annually, and that 
the benefits for Montana residents of using Amtrak intercity service 
(in terms of automobile costs avoided, lower accident probability, 
reduced highway maintenance, etc.) totaled at least $7.6 million 
annually.\2\
---------------------------------------------------------------------------
    \1\ ``Economic Benefits of Amtrak Downeaster Service,'' Prepared 
for the Maine Department of Transportation by Economic Development 
Research Group, Inc. and KKO and Associates, February 2005.
    \2\ ``Analysis of the Economic Benefits of the Amtrak Empire 
Builder to Montana: Report to the Montana Department of Transportation, 
Montana Department of Commerce, and Montana Department of 
Agriculture,'' R. L. Banks and Associates, Inc., July 2003.
---------------------------------------------------------------------------
    Rail service is a key component of local communities' ability to 
retain and attract residents and businesses--the foundation of their 
future economic success. Yet too many communities lack this service. 
The college town of Grinnell is located in a sparsely populated part of 
central Iowa. Grinnell is only 285 miles from Chicago, but is no longer 
served by passenger rail, which used to connect the two cities in only 
a few hours. According to Jim Reische, Vice President of Communications 
for Grinnell College, ``Grinnell is having an increasingly hard time 
recruiting the world-class faculty, staff and students we need to 
sustain our reputation and support our community, because of the 
impression that we're geographically isolated.'' Reische believes that 
restoring the rail connection to Chicago is necessary for ``attracting 
people who have competing educational or employment options in 
locations they largely perceive as more desirable, typically because of 
easier access to metropolitan areas and the associated assumptions 
about diversity, cultural life, etc.''
    Along the Gulf Coast, 22 mayors have joined together to support 
restoration of passenger rail service from New Orleans to Orlando. 
Service along the Gulf Coast was suspended after Hurricane Katrina in 
2005 and has not been restarted, despite the fact that this corridor is 
experiencing rapid growth. It is the fourth largest aerospace corridor 
in the country, an industry that needs rapid, efficient transportation 
for its products and people. These mayors--who represent cities large 
and small along the Coast--are seeking the restoration of passenger 
rail service in order to allow their region to continue its strong 
economic growth without choking on highway and airport congestion.
    At the same time, local leaders in Baton Rouge and New Orleans are 
spearheading an effort to create a rail connection between their two 
cities. Post-Katrina, Baton Rouge is now the largest city in Louisiana, 
yet many of its residents still commute daily to New Orleans. Those in 
New Orleans need access to the state capital as well. As a result, the 
highway between the two cities is highly congested, and geographic 
limitations make expansion challenging. Civic leaders in Baton Rouge 
and New Orleans recognize that passenger rail between these two major 
economic centers is essential to support the region's continued 
economic growth.
    While these examples focus on specific corridors, the value of our 
passenger rail system derives from the fact that it is a national 
system. As with any network, the more connections that are made, the 
larger and more valuable the network becomes. By expanding service to 
more communities, the economic benefits of the entire network can be 
increased. If any set of connections is eliminated, e.g., through 
reductions in service or degrading infrastructure, the value of the 
entire network is diminished. To ensure that our national passenger 
rail system achieves its maximum economic potential, we must not only 
improve and expand service to additional communities, we must also make 
the investments needed to ensure that the system is brought into a 
state of good repair.
    The reauthorization of the rail program should maintain and expand 
the national intercity passenger rail system, provide increased, 
stable, and dedicated funding for passenger rail, and provide local 
communities with additional funding and financing tools to support 
station-area economic development efforts such as those in Meridian and 
Normal.
d. Deploy Promising Research Through Locally-Based Pilots
    Local communities would also benefit from the ability to put 
promising new ideas into action. The next transportation bill should 
use a portion of Federal research dollars to provide opportunities for 
communities to apply for innovative implementation grants and use these 
pilots as models, should they succeed, for communities nationwide. 
Innovative projects could be those that would improve transportation 
decision-making, increase operating efficiencies, or advance 
performance outcomes. Local communities, as the laboratories for 
ground-breaking practices, would receive an early return-on-investment 
through these deployment activities, through cost-savings and increased 
efficiency. This type of program would also make more efficient use of 
Federal dollars by decreasing the time it takes for research to get 
from testing and development to implementation nationwide.
Conclusion
    To conclude, let me reiterate my appreciation for the 
Subcommittee's interest in this topic. As I have said, mayors and other 
local leaders across the country with whom I have spoken are working 
hard to keep their local economies moving and improve the quality of 
life for their residents. The Federal Government must continue to stand 
with them as a ready partner in these efforts. As the Subcommittee 
develops its transportation authorization bill, we stand ready to 
assist your efforts to ensure that our multimodal transportation system 
can realize its full potential and allow our cities, towns, and suburbs 
to be more competitive and prosperous. Again, thank you for inviting me 
to testify today.

    Senator Blumenthal. Thank you.
    We're going to make all of your written statements part of 
the record, without objection.
    And I want to thank you particularly for mentioning the 
city of Hartford, which, in your testimony--your written 
testimony, you correctly describe as an economic engine for the 
entire region. And the TIGER grant that we were able to obtain 
in 2012 for Hartford is going to play a critical role at Union 
Station there in developing a multimodal approach.
    So, thanks for mentioning it, and thanks for your excellent 
testimony.
    Mr. Smith. Thank you, Chairman.
    Senator Blumenthal. Mr. Fisher.

 STATEMENT OF PAUL S. FISHER, VICE CHAIR, BOARD OF TRUSTEES OF 
 CENTERPOINT PROPERTIES TRUST; CHAIR, SUPPLY CHAIN INNOVATION 
NETWORK OF CHICAGO (SINC); AND MEMBER, COALITION FOR AMERICA'S 
                  GATEWAYS AND TRADE CORRIDORS

    Mr. Fisher. Thank you, Chairman Blumenthal and Ranking 
Member Blunt.
    It's a real honor and privilege to have the opportunity to 
talk to you about an issue that's absolutely essential to the 
national economic health, which is enhancing our national 
freight system. I'd like to tell you a little bit about who I 
am and why I'm here.
    I was asked to share the perspective of business, not just 
transportation businesses, but business generally, because all 
businesses depend on effective freight transportation.
    A little on my background. I was a founder of CenterPoint 
Properties, which is a national company focused exclusively on 
transportation-related assets and transportation 
infrastructure. Our business is the business of this committee. 
I was President and CEO of the company when I recently retired. 
My first activity after stepping away was, with a group of 
other executives in the supply chain, forming an organization 
called SINC, the Supply Chain Innovation Network of Chicago. My 
friends in the supply chain, in all links of the supply chain--
railroads, short-lines, steamship lines, 3PLs--said we had to 
get together and talk about this, because, without enhancing 
our supply chain, we're going to lose business, not just their 
business, but America's business. Finally, I'm a Member of the 
Coalition for America's Gateways and Trade Corridors, a 
national organization that includes both businesses and 
governments.
    But, why is an integrated, well-conceived, well-created, 
maintained freight system important, and more important than 
ever? Two facts, I think, illustrate this. Virtually every 
American and every business depends on freight transportation. 
It's a little-known fact, but our freight transportation system 
handles 40 tons of freight annually for each American. And, on 
average, 50 cents of everything we buy or use is transportation 
expense. If we get our integrated freight transportation system 
right, we can boost economic growth across a gigantic swath of 
our economy.
    First of all, manufacturing. Reshoring is real, and it's 
happening. We can accelerate this growth if we have a system 
that can move parts, other inputs, and finished goods more 
cheaply.
    In the resource market, the boom in energy production is 
real. We can produce and move more, as well--more energy, as 
well as derivative products, if we create and enhance the 
related freight system to these products. It's not just oil and 
gas, though. You know, goods that are green also move by train. 
Turbine blades and modern components of the electrical grid 
depend on the freight system.
    Agricultural goods. We are the world's most productive 
nation in the agricultural sector, but these products depend 
heavily on transportation to get these goods to our homes, and, 
more importantly, abroad.
    Then finally, retail goods. Of course they depend on 
freight.
    So, what is an effective railroad system--freight system? 
Well, it's multimodal. And this is the term to describe it. 
What does this mean? It really depends on the interchange of 
freight from different roads. The most common is ship to rail 
to truck to distribution facilities and to our homes or to 
businesses. Think--you've got to think about it like a relay 
race. There are the racers that are the modes, the interchange 
is the baton handoff. And businesses--and then the winning 
relay team, it's the handoff that counts. So, it's the 
interchange between the modes that really matters. Inventory 
has to be in motion, goods have to be in motion, because time 
is money.
    Your colleagues aren't here, but, I think, in half the 
Committee, there are projects that we have done that have 
involved multimodalism. So, what principles ought to guide you 
in looking at this? First, we need to change policy and 
integrate all modes. We have to look at this holistically. We 
should designate and enhance a national intermodal network, and 
then we have to invest in projects that best serve that 
network.
    I think following these principles will tackle some 
important challenges that we have. First of all, we have to 
foster collaboration across the many committees in the Congress 
that actually deal with this. So, having a policy that 
organizes the committees, I think, is essential.
    Second, these projects are enormous and take a long time. 
Multiple states are frequently involved, multiple levels of 
State government. And at each level of State government, there 
are multiple agencies. And then there are multiple private 
entities. An intermodal national focus would help motivate 
these groups to work together.
    Seed money can align interests and get people focused on 
doing the right thing. In my experience, 10 cents of government 
investment motivates about 90 cents of private investment. 
That's tremendous leverage if it's focused practically and 
smartly.
    It has been said that $2 billion should be allocated to 
this. Matched with another $2 billion from State government, 
that could produce as much as $40 billion of annual investment 
in freight infrastructure.
    We need to look at these projects as partnerships. If we 
focus on the best projects for the Nation, the ones that lower 
freight movement cost will benefit the greatest number of 
Americans. We have to look at this, we have to solve big 
problems. If we--but, if we grow jobs and wages, we can fund 
mortgages, tuition that address weaknesses in our housing 
markets and our skill deficit. We can grow exports that will 
help balance our trade deficit. And if we can grow revenues, 
that will help us balance our budget.
    Doing nothing is a tax. Congestion is a tax. Freight costs 
that are higher than they should be is a tax on everything we 
make and consume. In fact, doing nothing is a tax increase. We 
will miss the opportunity that's just sitting there for our 
Nation and our fellow citizens. The supply chain is seeking the 
lowest cost to move freight. We can't be complacent, because 
maybe America will be left out of the chain.
    A lot of issues divide this body. This one shouldn't. 
Effective government direction, coupled with investment that 
leverages state and, more importantly, business investment, 
will grow our economy. I think we all can stand on this common 
ground.
    Thank you for listening to business.
    [The prepared statement of Mr. Fisher follows:]

Prepared Statement of Paul S. Fisher, Vice Chair, Board of Trustees of 
CenterPoint Properties Trust; Chair, Supply Chain Innovation Network of 
Chicago (SINC); and Member, Coalition for America's Gateways and Trade 
                               Corridors
    It is my pleasure and honor to testify before the Senate Committee 
on Commerce, Science and Transportation's Subcommittee on Surface 
Transportation and Merchant Marine Infrastructure, Safety, and 
Security. Today I am representing both CenterPoint Properties--an 
owner, manager and developer of industrial real estate with expertise 
in intermodal and transportation-related development--and the Coalition 
for America's Gateways and Trade Corridors (the Coalition), a diverse 
coalition of more than 60 public and private organizations dedicated to 
increasing Federal investment in America's multimodal freight 
infrastructure. I thank Chairman Blumenthal, Ranking Member Blunt and 
Members of this Subcommittee for the opportunity to share my views with 
you, as I believe it is essential that our federal, state and local 
leaders all understand the important role logistics, advanced 
technology, and infrastructure play in maximizing both trade and 
manufacturing opportunities.
    Realizing that the surface transportation authorization touches a 
broad range of topics and has bearing on the safety and quality of life 
for people across the nation, I will focus my comments on an aspect 
that supports American businesses, leverages our economic output to 
create more jobs, and enhances Americans' daily lives by providing the 
products on which we all depend: our national freight system. According 
to the U.S. Department of Transportation, each American requires the 
movement of approximately 40 tons of freight per year across the 
freight network.\1\
---------------------------------------------------------------------------
    \1\ Federal Railroad Administration, ``National Rail Plan,'' 
September 2010. <www.fra.dot.gov/Elib/Document/1336>
---------------------------------------------------------------------------
    We are a growing nation of consumers and, thanks to a rebounding 
economy, Americans are experiencing increased purchasing power. Our 
manufacturing sector is exporting goods to the world's consumers at 
rapid pace and our global economic competitiveness is tied directly to 
our ability to move these goods in a safe and efficient manner. Just 
last month, the Boston Consulting Group issued a new report calling the 
U.S. a ``rising star'' and ranking our country second only to China in 
competitiveness for global manufacturing.\2\ According to the Bureau of 
Transportation Statistics, ``productivity growth in freight 
transportation has long been a driving force for the growth of U.S. 
overall productivity and contributed directly to the growth of the U.S. 
GDP.'' \3\ Representing 85 percent of our national economy, our 
country's five major economic sectors--manufacturing, retail, 
agriculture, natural resources and transportation providers--are 
reliant on efficient freight movement to be successful in both the 
national and world marketplace. Despite all this, we have ignored the 
need to invest systematically and strategically in our national 
multimodal freight transportation system.
---------------------------------------------------------------------------
    \2\ Sirkin, H., Rose, J., & Zinser, M, The U.S. Manufacturing 
Renaissance: How Shifting Global Economics Are Creating an American 
Comeback, 2014.
    <http://www.bcg.com/media/PressReleaseDetails.aspx?id=tcm:12-
159505>
    \3\ Bureau of Transportation Statistics, ``Economic Impact on 
Transportation,'' January 2014. <http://www.rita.dot.gov/bts/programs/
freight_transportation/html/transportation.html>
---------------------------------------------------------------------------
    Strategic investment in freight efficiency and relief for 
congestion chokepoints is very important to my industry. Headquartered 
in the Chicago area, CenterPoint Properties Trust is focused on the 
development, acquisition and management of industrial property and 
transportation infrastructure that enhances business and government 
supply chain efficiency. We are the Nation's leading developer, 
investor and manager of supply chain industrial assets and related 
rail, road and port infrastructure. The company invests in major 
coastal and inland port logistics markets anchoring North America's 
principal freight lanes. CenterPoint's portfolio includes 45 million 
square feet and 5,750 acres under development in the company's 
integrated intermodal industrial parks; the company currently manages 
$3.1 billion in investments and employs 107 people. After 12 years as a 
public industrial real estate company, CenterPoint was acquired by 
CalEast Global Logistics in March 2006.
    As a founder of CenterPoint Properties, I have a great many years 
of experience in the freight transportation and logistics industry. 
And, as a company, CenterPoint has helped bring enhanced goods handling 
and movement to areas as far-flung as Oakland CA, Houston TX, Atlanta 
and Savannah GA, Suffolk VA, and our hometown of Chicago IL. Our 
customers reflect a wide spectrum of American and international 
business, including major Class-I railroads, Wal-Mart Stores, Inc., DSC 
Logistics, Georgia Pacific, Potlatch, Sanyo Logistics, Partners 
Warehouse, California Cartage, Maersk, Bissell and many others. So, my 
remarks draw on the collective experience of many freight system users 
and locations.
    It is widely agreed that in the United States we can support our 
retail, manufacturing, agriculture and other industries better by 
improving our national multimodal freight system. Without a campaign of 
strategic investment to expand capacity and increase efficiency, U.S. 
productivity and global competitiveness will suffer, costs will 
increase and investment will lag. Freight mobility--on all modes--
requires added capacity and improved efficiency to keep pace with 
growing demands. And connectivity among the modes is key to efficient 
goods movement. Based on estimates of freight system needs, the 
Coalition for America's Gateways and Trade Corridors believes a minimum 
of $2 billion in Federal investment is necessary on an annual basis, in 
addition to state, local and private funding.
    Per MAP-21, ``It is the policy of the United States to improve the 
condition and performance of the national freight network to ensure 
[it] provides the foundation for the United States to compete in the 
global economy.'' MAP-21 took the first steps toward a robust freight 
transportation program and, since its passage, the chorus of support 
has grown among Members of Congress, the Administration, and American 
businesses.
    As called for by the House Transportation and Infrastructure 
Committee's Special Panel on 21st Century Freight Transportation, the 
Coalition asks Congress to expand this commitment by taking the 
following measures in the 2014 reauthorization:

  <bullet> Modify the national freight transportation policy to make it 
        multimodal and designate a national, multimodal freight 
        network: Freight policy and planning should incorporate the 
        many modes of transportation that move goods;

  <bullet> Authorize dedicated, sustainable, substantial funding for 
        multimodal competitive freight infrastructure grant program: 
        Authorize dedicated, sustainable funding for a multimodal 
        freight-specific Projects of National and Regional Significance 
        (PNRS), or a similar freight infrastructure program, through a 
        competitive grant process and establish clear measurable 
        criteria for project selection. By prioritizing projects with 
        demonstrably important public benefits and supported by non-
        federal funding, a $2 billion merit-based, competitive grant 
        program could leverage many times itself in economic value. 
        Established under SAFETEA-LU, PNRS assists in funding large-
        scale infrastructure projects, spanning modes and 
        jurisdictional borders, which are difficult, if not impossible, 
        to fund through traditional distribution methods such as 
        formula programs;

  <bullet> Ensure robust public investment in all modes: Freight does 
        not move on highways alone--where public benefit is derived, 
        public investment must be made. In the case of highways, 
        increased investment is necessary, particularly for National 
        Highway System intermodal connectors, which bridge highway 
        freight to other modes and distribution centers and are the 
        conduits for the ``synergistic'' use of combined modes. FHWA 
        estimates intermodal connectors are at least 50 percent less 
        maintained than the rest of the highway system. Often it is the 
        places where various modes come together that need public 
        assistance to close the funding and infrastructure gaps, which 
        result in capacity inefficiencies and bottlenecks. Examples 
        include highway-rail grade crossings, rail spurs to access 
        cargo, logistics or transfer facilities, tunnels and bridges 
        for port access, border crossing capacity enhancements, and 
        air-freight connectors.

    The planning groundwork for highway freight introduced in MAP-21 is 
commendable and a true step forward. Now, it is time to take the next 
step. Freight is not a singular mode commodity and as such, planning 
and funding its built infrastructure should not be either. We recognize 
the challenges:

  <bullet> Legislatively speaking, current committee jurisdictional 
        boundaries make it difficult to craft law in a multimodal 
        fashion.

  <bullet> Freight infrastructure is not solely public or federally 
        operated. Freight rail is private. Inland and seaports vary in 
        structure and authority (some are run by states, others by 
        special authorities, cities or even counties). International 
        ports of entry are governed by a multitude of agencies at the 
        federal, state, and local level. Given the varying degrees of 
        operation, it is difficult to make broad-stroke planning 
        mandates.

    Those challenges cannot be minimized, but they are put into 
perspective when juxtaposed against the challenges we face through 
inaction:

  <bullet> The lag in U.S. manufacturing that stands to take place as a 
        result of stifled shipping capacity.

  <bullet> Increased transportation costs, which effectively acts as a 
        tax that we, as consumers, are paying as long as the 
        bottlenecks, capacity problems and deficiencies in our 
        multimodal network go unaddressed.

  <bullet> The pressure on the trucking industry to retain drivers and 
        owner-operators in the face of fading productivity and mounting 
        stress due to congestion.

  <bullet> The competition from Canadian and Mexican ports where 
        government support and investment has expanded North American 
        gateway options and market access.

    Building upon the good work of MAP-21, freight policy must be 
reoriented to become multimodal. Just like the overlapping modes needed 
to move freight, legislating a multimodal freight program will require 
teamwork among jurisdictions in Congress. For the next surface 
transportation authorization, the Coalition calls for a holistic, 
large-scale multimodal freight policy containing a highway-specific 
program and a complementary multimodal competitive grant program, with 
broad applicant and project eligibility, to be administered by U.S. 
Department of Transportation. Noting the great emphasis both the Senate 
Commerce Committee and Senate Environment and Public Works Committee 
have placed on freight, the Coalition encourages the two Committees to 
work together to develop a program that addresses and satisfies the 
needs of our entire multimodal freight network.
    Private companies, CenterPoint Properties Trust included, have made 
enormous infrastructure investments that benefit our company, our 
customers and the American public. However, there exists a gap that 
must be filled by strategic, targeted investment by our national 
government. On behalf of both the Coalition and CenterPoint Properties, 
I ask this Committee to prioritize freight investment in the next 
surface transportation authorization. Such investment is truly critical 
for our national economic competitiveness and I caution Congress that 
these important freight projects cannot wait another six years in hope 
that we find ourselves in a better financial condition. In fact, absent 
investment in our national commerce-moving system, we most certainly 
will be in a far worse situation than we are today.

    Senator Blunt [presiding]. Thank you, Mr. Fisher.
    Mr. Poupore?

 STATEMENT OF RAYMOND J. POUPORE, EXECUTIVE DIRECTOR, NATIONAL 
                    INFRASTRUCTURE ALLIANCE

    Mr. Poupore. Thank you for the opportunity to join you this 
afternoon, Chairman Blumenthal and, I guess, Chairman Blunt----
    [Laughter.]
    Mr. Poupore. Ranking Member Blunt and distinguished members 
of this subcommittee. My name is Ray Poupore, and I'm the 
Executive Director of the National Infrastructure Alliance, 
coalition of four of the Nation's largest construction unions: 
the International Union of Operating Engineers, the United 
Brotherhood of Carpenters and Joiners of America, the Laborers' 
International Union of North America, and the International 
Association of Bridge, Structural, Ornamental, and Reinforcing 
Ironworkers. The four unions of the alliance, together, 
represent over one and a half million workers, many of whom 
build our Nation's transportation infrastructure.
    I've had the honor of representing these unions for a 
number of years on some of the Nation's largest transportation 
infrastructure projects--projects that span the array of 
transportation modes. From the Woodrow Wilson Bridge in the 
capitol area here, to the Tacoma Narrows Bridge in the Pacific 
Northwest, from the Tappan Zee Bridge up there in the New York 
area, to the Bay Bridge in San Francisco. We build the rail 
lines, the light rail systems, SoundTransit Regional System, in 
the Pacific Northwest, to the first phase of the Dulles Light 
Rail, in Northern Virginia. We build the Nation's locks and 
dams, including one I've got going on right now at the Olmsted 
Lock and Dam. It's on the Ohio River, just south of Illinois 
and north of Kentucky there. We've got hundreds and hundreds of 
craftsmen working out there. It's a great Corps of Engineers 
project. The operating engineers dredge the Nation's harbors 
and inland waterways. The unions I proudly represent build the 
Nation's multimodal hubs, train stations, and large-scale 
freight infrastructure. In short, the four craft unions I'm 
proud to represent build much of the transportation 
infrastructure we see today in the United States and Canada.
    And my background, Senator Blunt, is--I'm an operating 
engineer, a crane operator, out of Detroit, Michigan, out of 
Local 324, spent a lot of time working on rail projects and 
building railroad bridges and working crane rentals, putting 
those trains back on the tracks when they would get derailed.
    I would like to spend a moment talking about the Federal 
Highway Administration's estimates that over two-thirds of 
direct jobs created by transportation investment are in 
construction. So, about 10,000 direct construction jobs are 
created with every $1 billion invested in a highway project. 
While every project is different, particularly as we look 
across transportation modes, requiring varying levels of labor 
from the different crafts, the estimates are roughly consistent 
across all modes. So, we're looking at about 10,000 
construction jobs for every billion dollars invested. It's very 
important to the members I represent.
    Please let me turn now to the crisis that brings us here 
today. As we know, the Highway Trust Fund faces a steep cliff 
on October 21, 2014. It appears that the Highway Trust Fund 
will be unable to meet its obligations even sooner, perhaps as 
soon as July, forcing the Department of Transportation to 
withhold payments to States, with a ripple effect to 
construction contractors and potentially to the workers.
    If the Highway Trust Fund is allowed to go over the edge, 
the harm to the construction sector will be catastrophic. The 
National Infrastructure Alliance respectfully and strongly 
encourages your committee to join the bipartisan effort to 
reauthorize MAP-21 to stave off the dramatic harm that could be 
inflicted on the construction sector and beyond if resources 
are not found to fill the funding gap. We implore you to 
quickly move on the freight title under your committee's 
jurisdiction and send the reauthorization to the Senate floor.
    So, please let me allow to shift gears here for a second, 
taking you from the description of what is at stake if we fail 
to take action to some of the action you will have to take, and 
must take, in order to avoid the self-inflicted economic harm.
    We know that the Finance Committee is going to have to 
wrestle with these difficult funding questions. The funding gap 
is substantial, estimated at roughly $15 billion a year. But, 
what is clear is that we must solve the problem. The National 
Infrastructure Alliance has long supported the U.S. Chamber of 
Commerce's preferred revenue option, the gas tax. Yet, Congress 
and the administration, to date, have been unwilling to raise 
the user fee. Inflation has swallowed up the purchasing power 
since the last time the gas tax was raised, over 20 years ago--
twenty years. Twenty years, the NIA believes that it's 
necessary to index the gas tax to inflation. I looked, before I 
came over here, earlier this morning, of what a gallon of gas 
cost in 1993. It was between $1.10 and $1.20, certainly under 
$1.50. Gas has more than doubled.
    We are receptive to a whole range of revenue and financing 
options that we believe should be pursued by the Finance 
Committee to remedy this crisis, and we are prepared to work 
with this Congress to build support for a revenue package.
    I included a chart in my testimony to show how badly 
impacted construction workers were in the last great recession. 
We've lost over one and a half million construction jobs since 
2007. They haven't come back. If we're not to address the 
Highway Trust Fund, it'll get worse.
    A fully funded multi-year transportation reauthorization is 
a top priority for the carpenters, ironworkers, laborers, 
operating engineers, and the rest of the building trades. You 
have the power to make this happen, but it will require 
leadership. We strongly urge you to follow the bipartisan lead 
of the Environment and Public Works Committee. Their markup 
builds momentum to solve this crisis. We're eager to continue 
to work with you in the 113th Congress to remedy an even bigger 
problem and, indeed, save the Highway Trust Fund.
    Thousands of my members are out of work and are desperately 
looking to Washington for leadership so that we can get back on 
the job. It's time for Congress to do its work so that we can 
do our work, building America's transportation system.
    Thank you, Senator Blunt, for the opportunity to join you 
this afternoon. And we appreciate all that this committee does 
in creating funding that puts my members to work.
    So, thank you very much.
    [The prepared statement of Mr. Poupore follows:]

     Prepared Statement of Raymond J. Poupore, Executive Director, 
                    National Infrastructure Alliance
    Thank you for the opportunity to join you this afternoon, Chairman 
Blumenthal, Ranking Member Blunt, and distinguished members of the 
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security.
    My name is Raymond J. Poupore. I am the Executive Director of the 
National Infrastructure Alliance--a coalition of four of the Nation's 
largest construction unions, the International Union of Operating 
Engineers, the Laborers' International Union of North America, the 
International Association of Bridge, Structural, Ornamental, and 
Reinforcing Ironworkers, and the United Brotherhood of Carpenters and 
Joiners of America. The four unions of the Alliance together represent 
over 1.5 million workers--many of whom build the Nation's 
transportation infrastructure.
    I have the honor of managing labor relations for the four unions of 
the Alliance on some of the Nation's largest transportation 
infrastructure projects--projects that span the array of transportation 
modes. From the Woodrow Wilson Bridge in the Capital area to the Tacoma 
Narrows Bridge in the Pacific Northwest. From Tappan Zee Bridge to the 
Bay Bridge. We build the rail lines and light rail systems. Sound 
Transit's regional system in the Pacific Northwest to the first phase 
of Dulles Light Rail in Northern Virginia. We build the Nation's locks 
and dams, including the construction that is currently underway at 
Olmsted Lock and Dams. The Operating Engineers dredge the Nation's 
harbors and inland waterways. The unions I proudly represent build the 
Nation's multi-modal hubs, train stations, and large-scale freight 
infrastructure. In short, the four craft unions I'm proud to represent 
build much of the transportation infrastructure we see today in the 
United States and Canada.
    Construction workers and members of the unions of the Alliance, in 
particular, pay their mortgages, buy their cars, and purchase their 
family health care through the paychecks they earn building all modes 
of surface transportation, and we appreciate you giving the National 
Infrastructure Alliance the opportunity to bring you an industry 
perspective on the critically important work you do to create jobs by 
investing in surface transportation.
    To underscore just how important transportation investments are to 
the industry, please allow me to remind you of the employment numbers. 
The Federal Highway Administration estimates that over two-thirds of 
the direct jobs created by a transportation investment are in 
construction. About 10,000 direct construction jobs are created with 
every $1 billion invested in a highway project. While every project is 
different, particularly as we look across transportation modes, 
requiring varying levels of labor from the different crafts, the 
estimates are roughly consistent across modes. Your investments employ 
thousands of NIA members. There is nothing more important to the 
employment prospects of NIA members than a robust Federal surface 
transportation bill.
    Please let me turn now, Chairman Blumenthal, to the crisis that 
brings us here today. As we know, the Highway Trust Fund faces a steep 
cliff on October 1, 2014. It appears that the Highway Trust Fund will 
be unable to meets its obligations even sooner, perhaps as soon as 
July, forcing the Department of Transportation to withhold payments to 
States, with a ripple effect to construction contractors and, 
potentially, to workers.
    If the Highway Trust Fund is allowed to go over the edge, the harm 
to the construction sector will be irreparable. The National 
Infrastructure Alliance respectfully and strongly encourages your 
committee to join the bipartisan effort to reauthorize the Moving Ahead 
for Progress in the 21st Century (MAP-21) and stave off the dramatic 
harm that could be inflicted on the construction sector and beyond if 
new resources are not found to fill the funding gap. We implore you to 
quickly move on the freight title in your committee's jurisdiction and 
send the reauthorization to the Senate Floor.
    The National Infrastructure Alliance (NIA) believes that investing 
in American infrastructure is an essential element of a national 
strategy to boost our economy at the local level, project by project, 
simultaneously creating job opportunities for construction workers and 
enhancing the Nation's global competiveness. The NIA is concerned that 
without meaningful, long-term investments in surface transportation 
infrastructure the construction sector will drag down the performance 
of the broader economy, causing significant damage beyond the already 
decimated industry, reducing demand for heavy equipment, steel, 
aggregate, and other related products.
    The unemployment rate in construction peaked at over 27 percent in 
February 2010. That is a depression-era level of unemployment. I have 
attached a graph to my testimony to give you a look at the damage done 
to the construction sector and the workers in it since December 2007, 
the formal start of the Great Recession. You can see that employment 
levels in the construction sector bottomed out in winter 2010-2011. 
While we are gradually seeing some growth, we are still in the trough. 
Unfortunately, the data reveals what appears to be a new normal in the 
industry.
    The unemployment rate in construction is still at 9.4 percent, more 
than three points higher than the overall economy. While that 
unemployment rate is too high, it is dramatically improved over the 
same time four years ago when it was almost 22 percent. There are 
roughly 1.5 million fewer workers in the construction industry today 
than there were in start of the Great Recession in December 2007--
that's about one-fifth of the whole industry.
    The situation must not be allowed to worsen. Failing to reauthorize 
the surface transportation law--and more immediately to fill the hole 
in the Highway Trust Fund--would dramatically worsen the construction 
sector employment picture. Simply put, this battered industry cannot 
sustain the type of blow that would be inflicted if Congress fails to 
enact a timely multi-year, fully-funded surface transportation 
reauthorization. Further, the crisis in the Highway Trust Fund demands 
immediate congressional attention and intervention. Congress cannot 
allow the Highway Trust Fund to fail to meet its obligations to the 
states. The effect on employment in the construction industry would be 
catastrophic. Every job counts in our beleaguered industry and we are 
risking the loss of tens of thousands more construction jobs if the 
surface transportation funding puzzle is not solved.
    It is worth pointing out that these are family-sustaining jobs. The 
average hourly wages for production and non-supervisory workers in the 
``heavy and civil engineering'' subsector of construction is $25.33--
almost five dollars higher than average wages for production workers 
throughout the private sector. Members of the four unions generally 
earn higher than the average wage in the sector, and they also earn 
retirement and health care benefits.
    Please allow me now to shift gears, taking you from the description 
of what is at stake if we fail to take action to some of the action you 
will have to take--must take--in order to avoid self-inflicted economic 
harm.
    We know that the Finance Committee is going to have to wrestle with 
these difficult funding questions. The funding gap is substantial, 
estimated at roughly $15 billion a year. But what is clear is that we 
must solve the problem. The National Infrastructure Alliance has long 
supported the U.S. Chamber of Commerce's preferred revenue option--the 
gas tax. Yet Congress and the Administration to date have been 
unwilling to raise the user fee. Inflation has swallowed up purchasing 
power since the last time the gas tax was raised over twenty years ago. 
Twenty years. The NIA believes that it is necessary to index the gas 
tax to inflation.
    It is also clear that spending is not the problem. MAP-21 only 
brought more discipline to spending in surface transportation. The 
legislation marked up in Environment and Public Works this morning does 
not spend too much. Indeed, it is not nearly enough, at least from the 
NIA perspective. We are receptive to a whole range of revenue and 
financing options that we believe should be pursued by the Finance 
Committee to remedy this crisis, and we are prepared to work with this 
Congress to build support for a revenue package.
    The nation's roads and bridges are crumbling before our eyes. 
Millions of American construction workers have left the industry for 
lack of opportunity. We simply cannot afford to lose more construction 
jobs. Yet without a solution to the problems in the Highway Trust Fund, 
that is precisely what will happen. The passage of a robust, multi-year 
transportation bill will slow the bleeding and give the industry a much 
needed shot in the arm.
    A fully-funded, multi-year surface transportation reauthorization 
is a top priority for the Carpenters, Ironworkers, Laborers, and 
Operating Engineers. You have the power to make this happen. But it 
will require leadership. We strongly urge you to follow the bipartisan 
lead of the Environment and Public Works Committee. Their markup builds 
momentum to solve this crisis. We are eager to continue to work with 
you in this 113th Congress to remedy an even bigger problem and, 
indeed, save the Highway Trust Fund. Thousands of our members are out 
of work and are desperately looking to Washington for leadership, so 
that they can get back on the job. It's time for Congress to do its 
work, so that we can do our work building America's transportation 
system.
    Thank you, Chairman Blumenthal, for the opportunity to join you 
this afternoon. We sincerely appreciate it.
                               Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Blunt. Good. Thank you.
    Thank all of you for your testimony.
    Senator Blumenthal has a news thing he has to do, but he'll 
be back. And, while he's gone, I'm going to ask some questions 
and try to do minimal damage beyond that, that he'd have to 
clean up when he got back.
    Mayor Martin and Mayor James, you know, traffic congestion, 
a big problem. Everybody, wherever they live, has that moment 
of the day--some places last longer than others--that's the 
traffic moment of the day. I'm just wondering, from either your 
experience in your city or something you've seen that you'd 
like to do, what kind of things can we do that will have the 
most impact on that?
    Mayor Martin first, and then Mayor James.
    Mr. Martin. It's approximately 20 miles from Bridgeport, 
Connecticut, which is the state of Connecticut's largest city, 
to Stamford. It is a heavily trafficked area of I-95. And on a 
routine day, it takes approximately 45 minutes for someone to 
commute that short distance. The peak traffic time starts at 
about 7 o'clock in the morning and ends at about 10:30 in the 
morning. It's worse in the evenings, when--particularly on a 
Friday evening, where the peak traffic time starts at around 
3:00--to 3 o'clock, and you'll be lucky if you can get from 
Stamford to Bridgeport in 45 minutes, which is, again, only 20 
miles.
    I said that's typical, but, in fact, what's also typical is 
that, at least once or twice a week, you're looking at more 
like an hour commute time in that short little distance. We 
need to do something, not only on our rail side, which is what 
I testified on, but we also need to do something on our highway 
side.
    But, here is a paradox that I've shared with others. And 
I'm not the expert transportation planner. But, if we were to 
lose our Metro-North Railroad, it would seem to have this 
terrible impact on I-95, making that transportation system even 
worse than it is already. I hate to tell you, Senator, but, in 
fact, I think it goes the other way. If we lose Metro-North, 
then we will have such a blow to our economic vitality that our 
major businesses will move out, our secondary and even tertiary 
businesses will move out. And the interesting thing is that we 
will, in fact, reduce the congestion on I-95 because we've 
destroyed the economic vitality of the region. We are 
desperately in need of your support from the Senate and the 
House in order to get the funds to expand the capacity and, 
particularly on Metro-North, to fix the infrastructure and 
build it for the future. And I ask for your--I humbly ask for 
your support.
    Senator Blunt. Mayor James.
    Mr. James. Well, thank you, Senator. I think that we have 
to confront several changing significant issues in our society. 
Number one, our society is getting older. And with that comes 
the advent of the old driver. Now, my daughter will tell you 
that, since I haven't been able to drive for the last 3 years, 
that she thinks that I am now totally incompetent to drive and 
will not want me on the road. So, we will have to live near 
transit so that I'll be able to get around, me and the seeing-
eye dog and my assistant.
    [Laughter.]
    Mr. James. But, we need to recognize that--I live in a city 
that's 316 square miles, 6,300 lane miles of road. That is a 
lot of road. As we shrink and get older, then what we are 
seeing is a retreat back to the core of the city, where 
services are easier to get to, and vehicles are less important. 
That's on the aging end.
    On the millennial end, where they do not want vehicles, but 
need and want to get around, then we have to look at 
alternative forms of transportation. Thus, we would create a 
complete system of transportation that would consist of cars, 
that would consist of ride-share, that would consist of rail, 
in terms of commuter rail and also streetcar, walking trails, 
transportation trails, and walkable neighborhoods. All of these 
things are transit-oriented, and they will determine how our 
cities continue to be built in the next 30, 40, 50 years. And 
we need to address our demographic issues. And I think if we 
listen to our aging population and our young population, they 
will give us a lot of guidance as to where we should be going.
    Now, in order to do that, we need consistent long-term 
funding so that the strategic planning necessary to accomplish 
those goals, reduce the level of traffic on streets, and, along 
with it, the smog and the pollution, are able to be 
accomplished in an efficient and cost-effective way.
    So, frankly, the best thing that we can do is to recognize 
what the Nation is becoming, in terms of age, and where we need 
to build things to attract and maintain our youth and creative 
class, and then head in that direction with some degree of 
planning and thought.
    Senator Blunt. You know, even in the middle of the country, 
where we have been pretty automobile-dependent and -focused, 
car-optional for the millennials is a much more frequently used 
term as to where you put businesses, where you put places that 
people live, have those options. It's a--and both sort of 
moving back, as you said, nearer to the center of the city.
    Mr. Smith, do you have a thought on that?
    Mr. Smith. Yes, sir, if I could respond.
    The solution to a highway congestion problem may not be a 
highway, and the Mayor referenced that. Public transit is often 
a solution. Also, commuter rail is a solution, and can be even 
in a state like Mississippi, where the interstate traffic 
through the 22nd Avenue interchange in Meridian is expected to 
double to 98,000 vehicles a day. Well, it'll become a parking 
lot. And you cannot expand the highway there, because you start 
buying hotels and shopping centers. So, the response from MDOT 
has been to build a loop around Meridian. Well, that sucks 
assets away from the heart of Meridian, out to where you now 
have to recreate those assets removed from the city center. And 
it really doesn't address the needs of capacity. When a rail 
link across Mississippi, linking Meridian, Jackson, and 
Vicksburg, could take care of a lot of that in-State traffic 
and take the decision from--MDOT would not have to build that 
loop, and the congestion on the highway could be solved by rail 
infrastructure investment.
    And the Mayor touched on it, but the baby-boom population, 
of which I certainly am one of those--we're the largest 
generation in the history of the country, with the longest life 
expectancy. And you don't want us all on the interstate highway 
system for the next 20 years. But, how do we stay connected to 
our family members, to the rest of this country, as we have 
time and the wherewithal to enjoy older life?
    And, as the Mayor said, when you--all of us who run for 
office say we want to create a hometown that our young people 
will come back to, to raise a family and to find a job and 
create a life. Well, if we want that, and if we mean it, we'd 
better be asking them what they're looking for. And the younger 
generation are not looking for the same things we looked for. 
They're choosing places that have character, that have 
transportation alternatives, to create their life. Then they're 
finding a job in those localities. And cities that understand 
that and are positioning themselves will reap the benefits of 
maintaining their retired population, which they want to do, 
but also drawing in the best and brightest young minds in the 
country.
    Senator Blunt. Mr. Fisher.
    Mr. Fisher. Yes. I think that this is an interesting point. 
I would agree that millennials don't want to drive, and they 
want transportation options. But, our transportation network, 
our roads and our rail lines, are often shared with the freight 
network. And one way that we can free up our highway system is 
by building an effective multimodal transportation system so 
the trucks and rail don't interfere with passenger traffic, and 
that passenger rail traffic doesn't compete with freight rail 
traffic. Some of the most congested areas in the United States 
are freight hubs, and freight hubs tend to be population 
centers. And so, if we don't reconcile or improve our freight 
system, we end up inhibiting the movement of people.
    Senator Blunt. And do you want to give--I was going to ask 
you about that very topic--do you want to, maybe, give me an 
example of, either in our country or somewhere else, where, 
really, the multimodal, the intermodal freight system is doing 
what we would want it to do?
    Mr. Fisher. Well, sure.
    Senator Blunt. What are good examples of that?
    Mr. Fisher. Well, in your state, we redeveloped the 
Richards-Bower Air Force Base, and that is on the NAFTA 
highway. And there's a resurgence of manufacturing taking place 
in your state, and it's directly related to the efficient 
transfer of parts and finished product at--taking place at that 
intermodal. And we're partners with the KCS, and they're doing 
an excellent job of doing that.
    Senator Blunt. The Kansas City Southern Railroad?
    Mr. Fisher. Kansas City Southern Railroad. We're great 
friends with them. And we expect, because of that hub, 
manufacturing will accelerate in the Kansas City area, because 
it's also a skilled-labor force there. We built an NNSA complex 
there, so you've got engineering talent and you've got a 
skilled labor force. But, importantly, you've got effective 
transportation in and out of there, where there's the 
interchange of goods from rail to truck to factory, or goods to 
ultimate consumers.
    Another example is in our home state, Chicago. We developed 
a dual-intermodal facility for the BNSF and the Union Pacific 
that handles, currently, about 2 and a half million TEUs, which 
ranks it as a very significant port in the United States. 
Millions of trucks come in and out of that facility. There are 
6,000 surrounding acres. We have, now, about 25 million square 
feet of industrial space. And that's processing parts, other 
goods. It's an export center for grain. And, because that hub 
is there, we've lowered the cost of living in Chicago, we've 
created new markets for our farmers, and we're beginning to 
attract manufacturing back to our region. Certainly, your 
colleague from Milwaukee, I think, if he were here, could 
attest to that. That's a manufacturing center, and they depend 
on efficient, cost-effective movement of goods. And our 
intermodal facility helps that.
    Now, one of the things--you know, that's a good thing for 
our region. A bad thing is, we have all Class-six-ones--all six 
Class 1s converge in Chicago--and so, passenger traffic 
definitely competes with rail traffic. I know most people don't 
understand the freight system until they're waiting at a train 
crossing, waiting for the freight train to go by. That happens 
a lot in Chicago. So, you're tying up people that could be 
productively engaged in their jobs, and many times you have 
trains stopped because passenger traffic is moving.
    So, that's--when you look at a multimodal program and an 
integrated approach to transportation, it has to account for 
passenger traffic, but it really does have to account for the 
interchange of goods from rail to truck, and, at our ports, 
from ports to rail or trucks. And the most congested areas that 
impose the greatest costs on Americans, all of us, are where 
those interconnections take place. And that's what Congress can 
really help focus us on by using selected prioritized funding 
to align all the interests that we've got to get into the room 
and thinking together to fix those transfer points that 
increasingly will be in our urban areas.
    Senator Blunt. And how critical do you see water as part of 
that, particularly in the middle of the country, where----
    Mr. Fisher. Well, barge----
    Senator Blunt.--Mayor Martin's from and Mayor James and you 
and I live?
    Mr. Fisher. You know, I think the Mississippi River is a 
tremendous asset. I just retired. I bought a house in New 
Orleans. I watch huge barges go up and down the river. We just 
bought a barge terminal in Joliet. Barge traffic is going to 
increase. It's a very low-cost way of moving bulk goods. When I 
talked about export of resources and resource movement, those 
are very heavy commodities, and they're--it's natural to move 
those by barge.
    So, water is really important, but also how those goods 
get, again, interchanged between barges and trains, or barges 
and trucks. And to use the analogy again, it really is a relay 
race. And if you can't pass that baton efficiently from mode to 
mode, racer to racer, it costs money, and that higher cost 
makes our businesses less competitive.
    So, we can't just focus on individual modes. We have to 
focus on all modes, and focus on how they're linked together. 
And that's what an integrated policy could accomplish, 
prioritized projects and selected funding to incentivize all 
the different people that touch these things to work together.
    Senator Blunt. And if your productive capacity, whether 
it's in agriculture or manufacturing or anything else, outgrows 
your infrastructure, it won't have outgrown your infrastructure 
for very long. Back to Mayor Martin's point, you begin to go 
the other way. And----
    Mr. Fisher. Let me----
    Senator Blunt.--that's why I think we're at such a crisis 
point on what we're doing now as it relates to where we'll be a 
decade from now and a decade after that. And----
    Mr. Fisher. No question. I picked up The Wall Street 
Journal yesterday, and, you know, farmers had a bumper crop, 
grains piled up because there isn't the equipment or the 
network to get it to our ports. It's costing our farmers money. 
They're worried about getting fertilizer to their fields for 
the spring season. I mean, in every sector of our economy----
    Senator Blunt. The railroad being otherwise occupied.
    Mr. Fisher. Well----
    Senator Blunt. As part of that. As part of that.
    Mr. Fisher. It's part of that, but part of that is capacity 
on the system. And planning--these projects take years, and 
it's a lot of hard work. Our company--I've been through many of 
them. And Congress can help by looking at this holistically. 
You can't just look at the roadway system, the passenger rail 
system, you know--you know, you've got to look at it all 
together. It's all of a piece. The supply chain is all of a 
piece. And as--you know, one comment I'd like to make. Data now 
is driving these decisions. There are companies out there that 
are developing algorithms to say, ``What's the cheapest way to 
move this''----
    Senator Blunt. Sure.
    Mr. Fisher.--``product to this?'' And, you know, the United 
States doesn't have to be in the supply chain. You know, if 
it's expensive to move things around this country, we won't 
make things here. We'll buy things here.
    Senator Blunt. Right.
    Mr. Fisher. And if--you know, that's--we want to make 
things here, and freight--our freight network is essential to 
being able to do that.
    Senator Blunt. Chairman.
    Senator Blumenthal [presiding]. If you wish to proceed with 
additional questions----
    Senator Blunt. Let me ask one more. Just--I want to make a 
point. I want to--don't want to ignore people who build this, 
here, because it's critically important, and--you know, these 
are things that we use for decades, and it takes a while to pay 
for them, but, you know, the capacity of the construction 
trades to get out--get in and make these things happen, this 
could be a particularly good element, the turnaround in the 
economy of that money once it goes to those families. And I 
think you've made those points well in your remarks, but do you 
want to say anything more about that?
    Mr. Poupore. Yes, thank you, Senator Blunt.
    You know, what we really need is long-term vision with the 
capacity to fund it in these various modes of transportation. I 
had mentioned the Olmsted Dam project. That's a dam and a lock 
that's 1,200 feet. And the reason they're 1,200 feet is--the 
old ones use to be 600--that way, they don't have to break the 
barges down, and you can move more product quicker and get it 
out there into this global economy. But, it takes a lot of 
planning, and it takes a lot of time to build these projects.
    We've been building the Olmsted Dam since 1996. We still 
have 7 years to go. The Corps developed a new way to build a 
dam. I don't think they'll ever try that way again. They used 
to build them the old-fashioned way, put a coffer dam around 
the area, make it dry, and then build the dam, but they tried 
something new, to float. It's something that they apparently 
had done in Europe. But, it has delayed it.
    But, our guys are all about trying to build the 
infrastructure and in--we want to do it, we've got the skills 
to do it. We're not asking anybody for any money. We do our own 
training. We pay for our own healthcare. We have skilled trades 
that are proud to make careers out of this, and good living--
good middle-class wages. So--but, we need the help of all the 
brains around this table and the two Senators here in this room 
to help us make sure that there's the funding in place so that 
we can create those job opportunities.
    Mr. James. Senator, if I could just add something on the 
river issue. If the Mississippi is the vena cava of water 
travel in this country, then the Missouri is certainly a major 
vessel. And we all know that the vena cava won't work if all 
the other vessels are clogged up. If we are going to have a 
truly intermodal system--and that includes water--then we need 
to be looking at all of our navigable rivers and waterways to 
make sure that they contribute to, as opposed to detract from, 
the ultimate issue of getting things to the ultimate port.
    Senator Blunt. Good point. And the Missouri--I'd leave a 
river out, here, if we're not careful--the Missouri, the 
Illinois, the Ohio--all make this inland draining system, with 
the biggest contiguous piece of agricultural land in the world, 
incredibly competitive and valuable, if, as Mr. Fisher said, we 
get the right thing on the right mode of transportation at the 
right moment in the process for the right amount of time. And 
if we don't, you know, and there--if we don't have those 
options, we're not nearly as competitive as we could be if we 
do have.
    And I have said, a number of times lately--of course, you 
know, where I live, it might be logical to say that--but, I 
think the Mississippi River is about to become more important 
than it has been in 100 years. I think we'll see a real 
revitalization of the riverways, generally--and that just 
happens to be our biggest of the rivers--but, the riverways, 
generally, as they become a much more critical part of 
commerce. They've never not been part of commerce in the last 
couple of hundred years, but certainly the focus on the river 
that we had 100 years ago, and the century before that, I think 
we're about to see that same kind of intensity, because it does 
get all of that off of the other things that we're trying to 
make less congested.
    Mr. Fisher. I would agree with you. Our business focused on 
rail, intermodal rail. We're now--we've bought our first barge 
terminal, and we're looking at several others. And having barge 
is really, really important--you know, to a business, they 
could move it by rail. My friends in the rail business don't 
like it, but you can also move it by barge. And having that 
competition, again, helps transportation costs to be low.
    If you permit me, I'd like to comment a little bit on 
wages. I--we have many, many friends in the labor movement. 
And, you know, Illinois is a union state. And there's a lot of 
talk about how wages are high in the United States. As a 
practical matter, if we keep our transportation costs low, it 
offsets that which some would perceive as a disadvantage for 
locating here. You know, we have very highly skilled workers, 
and they should be paid a commensurate wage. And that may deter 
industry from locating here. But, if you can move goods 
efficiently from mode to mode to mode, get them to 
international and national markets, we can pay people well. So, 
part of those savings can be redeployed to extra jobs and 
better wages.
    Senator Blunt. Good. Another key element there is the 
utility bill. If it's competitive, if transportation works, 
then a lot of other things come into that whole package.
    Thank you, Chairman.
    Senator Blumenthal. Thanks very much, Senator Blunt.
    Happy to welcome Senator Wicker of Mississippi.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman.
    And, to our panel, we took five votes today. They're 
supposed to be 15 minutes for the first one and then 10 minutes 
thereafter, but we just have a way of stretching those out, and 
that throws the whole afternoon out of kilter. So, now--I 
appreciate members asking questions long enough for me to get a 
thing or two done in the office and run down here.
    It's a particular pleasure for me to welcome Mayor John 
Robert Smith, who served with distinction as Mayor of Meridian, 
Mississippi, for several terms, and who's certainly well 
regarded around the Nation as an expert in the area of 
intermodal transportation--highways and rail.
    You know, the--states have different ways of suballocating 
their highway money, so let me--Mayor Smith, let me ask you 
about that in a couple of ways. I'm told Indiana, for example, 
suballocates a large portion of their surface transportation 
funds. In Maryland, a large portion is suballocated to the 
Baltimore-Annapolis Metropolitan Planning Organization. We 
don't do that in Mississippi, as you know, Mr. Mayor. And this 
means that city and county officials, basically, have had 
little to no involvement in developing a State transportation 
plan.
    So, let me ask you, first of all, Mr. Smith. MAP-21 made a 
number of changes to the way highway maintenance funding goes 
out the door. As a former Mayor, could you enlighten us? How 
have these changes impacted the way local government--cities 
and counties--participate in transportation planning?
    Mr. James. Yes, sir, Senator Wicker, and thank you for the 
kind things you said. It was always a pleasure to work with you 
and your office while I was serving as Mayor of Meridian.
    MAP-21 consolidated a number of the programs that local 
units of government could access for funds. And as they were 
consolidated, local units of government lost that ability to 
access those funds. Also, the--MAP-21 reduced the percentage of 
funds suballocated to local units of government. And then, 
third--and they added responsibilities, which then must be 
covered by those local units of government. In the TAP program, 
for example, which was one so successfully used by local units 
of government, 50 percent of that money was taken, and State 
DOTs are allowed to flex that for their use rather than even 
allow communities to compete for it. So, all of those things, 
taken together collectively, have greatly reduced local units 
of government access to any Federal transportation dollars to 
try to solve the transportation needs that they hear about from 
their local citizens every day.
    Senator Wicker. Thank you for that.
    Are you aware, Mr. Smith, of my amendment, with my 
colleague Senator Booker of New Jersey? We actually had the 
markup of the highway reauthorization today. Senator Booker and 
I did not offer the amendment. We discussed it and, of course, 
reserved the right to offer it on the floor after it has been 
refined, perhaps so as to gain the support of the leadership of 
the Committee. But, it was interesting to me to hear a 
Democratic member of the U.S. Senate from the Northeast saying 
the very sorts of things that a Republican member from the 
Southeast would say about the wisdom of local government and 
people being closer--the officials that are closer to the 
people knowing the needs better. It was kind of refreshing to 
see that bit of agreement there.
    Our amendment would carve out a portion of the money set 
aside for a discretionary competitive program within each 
state. Could you give us some thoughts about that, if you don't 
mind?
    Mr. Smith. Yes, sir. We absolutely support your push for an 
in-State competitive grant program that our local units of 
government, NPOs, can compete for, for the funding of the very 
issue that was not fully addressed in MAP-21. So, I thank you 
for that. I thank Senator Booker for that. And the fact that 
it's true in New Jersey and true in Mississippi tells me it's 
pretty universal across the country. And it's an issue that you 
have the opportunity to address here.
    I think the fact that you not only create the funding, 
allow the local units of government to compete for it, but you 
also set up a panel that assures the fairest process possible--
--
    Senator Wicker. Absolutely.
    Mr. Smith.--so that the best projects will move forward, so 
that you get the most innovation, you get the most 
transparency, and you assure that those Federal dollars have 
the greatest return on investment. And it will give my 
colleagues here at the table another funding source to meet the 
needs that their residents are pushing them for. And we 
discussed, before you came in, about the polar generations in 
our cities--and it's true in Mississippi, just as it is in 
Kansas City or in Connecticut--that we local electeds have to 
prepare ourselves to address those coming needs. And your 
amendment, which I hope will be offered, and I hope, working 
with the leadership, they will understand the wisdom, and that 
they will hear the voices of this Nation's local elected 
leaders, and will include that in the transportation 
authorization bill. You're absolutely correct.
    Senator Wicker. Mr. Chair, if I might just ask one other 
line of questioning?
    Senator Blumenthal. Absolutely.
    Senator Wicker. Mayor Smith, did--have you had an 
opportunity to tell the Committee your long-term involvement in 
the Amtrak system?
    Mr. Smith. I mentioned it briefly, yes, sir.
    Senator Wicker. OK. Well, let me just ask you. And I 
appreciate what you've done as the Mayor of a medium-size city 
in Mississippi, to work for a truly national passenger rail 
network. We have a lot of talk about the need for Amtrak's 
Northeast Corridor, which benefits those of us that work up 
here in the Northeast. But, how important are Amtrak's long-
distance networks to the cities and towns along those routes? 
And are there any changes we should look at, in that regard, 
that could free up funds for railroads across our Nation?
    Mr. Smith. Yes, sir. The Northeast Corridor is very 
important to this region and to the country, but it's not the 
only important corridor. And to focus on one corridor as being 
the only important one would be like focusing on one interstate 
highway as the only important one. We understand that, in the 
highway system, you have interstate highways, State highways, 
county-city roads and streets that connect together to form a 
system. We understand the holistic system of highways. Well, we 
need to have that same understanding of a holistic connected 
system of passenger rail.
    We're not looking for high-speed rail in Mississippi right 
now, but we are looking for some rail, and we're looking for 
maintaining that national system. Very important to our people, 
very important to access, very important to economic 
development that you've seen in the downtown--in Meridian after 
the investment in that transportation center there. We're 
seeing it in Hattiesburg, Mississippi, we've seen it in 
Jackson, Mississippi. You will see it along the coast again, if 
we get rail back there.
    The--to be on a transportation spine is critically 
important to economic development for a community. And in a 
state like ours, where you see that we're losing intercity bus, 
which we're losing all across this country, and we're 
threatened with the loss of essential air service, do you tell 
your citizens that you only have one choice to move about, and 
that's the private automobile? I think, again, when you look at 
an aging population in the millennial generation, they're not 
making those choices. And if we want them in Mississippi, 
creating their lives, spending their money, then we'd better 
have the tools to adapt to that. And the national passenger 
rail system is a part.
    So, it needs to be looked at. What is the best form of 
passenger rail that meets the needs of the states that it 
serves?
    And I would call your attention to the coastal South, which 
I know you hear from the cities in coastal Mississippi. Katrina 
occurred, wiped out service east of New Orleans. The cities and 
the people there did nothing to lose that service; it was a 
horrific storm. But, they don't have the service back. And you 
look at that corridor of cities from New Orleans through 
Gulfport, Biloxi, to Mobile, over into Florida, and why is that 
thriving corridor not connected by rail? I think that's a 
disservice to the people of the coastal South.
    Senator Wicker. Thank you, sir.
    Thank you.
    Senator Blumenthal. Thank you, Senator.
    I have a few questions. I know that you covered a lot of 
ground in your testimony and then in response to the questions 
that have been asked so far, but----
    First of all, let me ask Mayor Martin. You recounted, in 
your testimony, some of the recent challenges--in fact, crises 
and catastrophes that have really crippled rail transportation 
in Connecticut and, in many respects, throughout the Northeast 
Corridor, beginning with the Bridgeport derailment, the outage 
in Mount Vernon, the Spuyten Duyvil derailment, which killed 
four people, injured many others, costing literally, probably, 
at--in the end, all of them--billions of dollars and sparking a 
major interest in safety and reliability, culminating in what 
the Federal Railroad Administration called ``The Deep Dive,'' 
the report that was done. And now a response from Metro-North, 
which has been issued, just about an hour ago. And it 
concludes, and I'm quoting, ``Yet, while good progress has been 
made, much more needs to be done. The problems identified by 
the FRA clearly developed over a long period of time and will 
take continued relentless focus and ongoing attention to fully 
correct,'' end of quote.
    I would agree that much more needs to be done and the 
attention has to be relentless and long-term. And, in the 
meantime, there are steps that can be taken more quickly, 
relatively minimal in cost, such as alerters, cameras looking 
inward and outward, automatic train control, speed reductions. 
All of these steps should have been taken long ago, and can be 
taken right away. They are management issues as much as 
resource issues.
    And we've talked relatively little here about the 
management issues. And I would suggest to you that management 
really is a key component of this challenge, because as 
construction goes forward--and I'm totally in agreement with 
you that there has to be the investment in construction and 
renewal of this infrastructure--there are going to be 
management problems continuing. In fact, more so.
    In the case of Bridgeport, one of the reasons why the line 
was, in effect, crippled as a result of the derailment was that 
several of the tracks were out of service due to construction 
ongoing in one of the bridges that you mentioned, Mayor Martin.
    So, let me ask all of you, beginning with Mayor Martin, an 
open-ended question about your assessment of how the management 
of Metro-North and other railroads has been within your 
knowledge, and what can be improved.
    Mr. Martin. Well, before I answer that question, Senator, 
let me say, I don't think that everyone in the state of 
Connecticut recognizes just how important the great work you've 
done in leading this issue. And you are to be applauded, by me 
and by others, for tackling this. It's certainly disheartening 
as you peel back the layers and see more and more issues. And 
you're absolutely right, I'm talking about the infrastructure 
needs and the potential for catastrophe, but, at the same time, 
yes, the concern over--have we been having the right sort of 
management? Is the management only focused about how we get 
that train running, at whatever top speed it needs to be, 
tomorrow, but not dealing with the longer-term issues? And 
that's something that I have not been as close to as you have, 
and others. And I just want to thank you again, in recognizing 
your leadership----
    Senator Blumenthal. Thank you.
    Mr. Martin.--on taking this on, both from the funding level 
and the things you're doing, as well as the issues about 
management.
    From the way I see this--and if you--and, if I may, I'll 
take just an extra moment, here----
    Senator Blumenthal. Sure.
    Mr. Martin.--I want to tell you a little story that I was 
sharing with Mayor James that, Senator Blunt, you might find of 
interest.
    As you know, I grew up in Kansas City, Missouri. And when I 
was but a wee lad, when I was in, I guess, an--elementary or 
junior high school, I went on a tour of the Kansas City City 
Hall. And, during that tour, we went up to the very top floor, 
the observation deck, and we looked out on the Missouri River. 
And they pointed out--the tour guide pointed out a bridge 
there. And I still remember this whole story. I had to look up 
a couple of facts on Google today, but I remember this whole 
story. And there's a bridge out there that's known as the 
``Hannibal Bridge.''
    In 1868-1869, the leading cities in the eastern part of 
Missouri and--or, the western part of Missouri and the eastern 
part of Connecticut, were Leavenworth, Kansas, and St. Joe, 
Missouri. And Kansas City was really not that important a city. 
But--and in St. Joe and Leavenworth, they had a lot of 
arguments about whether or not they should invest to build a 
rail bridge over the Missouri. But, in Kansas City, they built 
a bridge over the Missouri and caused the railroads--instead of 
going to St. Joe, which is what everyone had expected, the 
railroads changed direction and went down to Kansas City and 
built a--the first connection between Chicago and Texas that 
ran through Kansas City, and changed the course of development 
in western Missouri, such that--I doubt that either Mayor James 
nor I would be here today if it weren't for that sort of 
development, which fundamentally changed Kansas City into a 
major economic center and, as Mayor James noted, in the rail 
yards that now exist in Kansas City and that center of economic 
activity.
    What I see in--what I see here today is, the investments we 
make are going to shape the future. And we are, on one side, 
looking at great opportunity, but, on the other side, we're 
looking at potential for complete catastrophe. And I know that 
those bridges--of the $3.6 billion, $2.8 billion of it is in 
movable bridges. And I mentioned they have malfunctions. What 
is a malfunction? A malfunction is when the bridge is half open 
and you can't get it shut. And either the river traffic can't 
get through or the rail traffic can't get through. That's just 
not a good thing. And the bridge, the most recent of which was 
built over 100 years ago? We absolutely need those investments 
to avoid the catastrophe and to build for the future.
    And that's why I want to thank you and--for pushing this 
forward. It is not just about Stamford, Connecticut. It is 
about the economy of that whole region of the country. And 
again, I want to thank you for your leadership on this issue.
    Senator Blumenthal. Well, I appreciate that. And, as I 
mentioned in my introduction, you have been a long-standing 
leader, not only as mayor, but in local government, and I think 
you--your point emphasizes that the thing about rail and about, 
really, all transportation, is that it shows no town, no city, 
no region is an island, because they are linked inseparably to 
other areas. And the point that you made about the impact of a 
bridge on economic development, I think, is very profound and 
important.
    Mayor James, I don't know whether you have anything you'd 
like to add.
    Mr. James. Well, Mr. Chairman, I think, in order to get you 
the best information, with people here who I think have far 
greater expertise on the subject of your question, I'll demur 
and let others speak to the issue of management of the 
railroads. There's no sense in me faking it.
    Senator Blumenthal. Mr. Fisher, how well managed are our 
railroads? You want to push on your microphone?
    Mr. Fisher. There we go. I think they're well managed. You 
know, private industry is motivated by profit. And I think the 
railroads have done an excellent job of building their 
networks. I think the critical management issue is how freight 
is interchanged between trucks and railroads. You can have a 
well-run trucking company, you can have a well-run railroad, 
but the question is, who manages that connection? Could be an 
intermodal yard, connecting streets, the highway system, how 
the passenger rail system intersects that. And that's where 
government comes in, because it can reconcile all the interests 
and all the different considerations and all the well-run 
private entities that have to worry about that connection.
    And I think it's an interesting point you made that, you 
know, it's a national problem, because these terminals are in 
different states. And so, I think government needs to--can use 
its policymaking authority, it can use its ability to 
prioritize projects, and then it can use seed money to get 
people to focus on how those interconnections can work more 
effectively.
    It's amazing how a little Federal money or State money can 
focus people's minds. Seed capital. In other words, guys, if we 
all work together, we can make this happen. And that was the 
case in the Joliet Park, the case at Richards-Bower and other 
facilities we've built around the country.
    The Senator is not here from South Carolina, but we built 
an inland intermodal, in Greer, that moves freight very 
efficiently from the ports of Charleston inland. And that's 
fueling the manufacturing resurgence in that State. And other 
states have contacted, says, ``Can you do that for us?'' So--
and it's about, again, port to shuttle train to an intermodal 
to a truck to a BMW plant that's 4 million square feet and 
makes all the X-5s that are exported around the world.
    So, transportation is really important, but, again, to your 
question specifically--well, maybe it's a little bit of an 
indirect answer, but it's really managing the investment in, 
and operation of, the interchange points between the different 
modes of transportation that we have to rely on here.
    Senator Blumenthal. I'd welcome any other comments on that 
point.
    Mr. Smith. Yes, sir, Mr. Chairman. When I was on the Amtrak 
Board of Directors, safety was the number one priority, and 
we'd reinforce that by training of the personnel and then 
holding those personnel accountable. And Amtrak has had a very, 
very strong safety record. And it's not just--and I want you to 
consider this, moving forward --it's not just protecting the 
infrastructure and the crews and the passengers from an 
accident. It's, when there is an accident--and there will be--
how do we train responders for a freight-rail incident with 
hazardous materials or a passenger-rail incident when the--if 
you remember the Bourbonnais accident, where Amtrak hit a load 
of steel that had run around the crossing arms and was on the 
track when it shouldn't have been in Bourbonnais, Illinois, and 
killed so many people. Well, there was no facility in the 
country that trained the emergency responders on how to deal 
with that. We created such a facility. It's in my hometown of 
Meridian, Mississippi, so I have to brag about that.
    But, we need to look at the responders that come to 
freight- and passenger-rail incidents. And in the Northeast 
Corridor, you can't overlook the investment that needs to be 
made in infrastructure. The Northeast Corridor needs $9 billion 
in infrastructure. And that's not to make the trains go any 
faster, that's to replace Civil War bridges and tunnels.
    So, that's a real safety issue, moving forward. And you--
that's a part, I think, of your answer.
    Senator Blumenthal. Mr. Poupore, on the issue of safety, 
how well are the railroads doing? And I mention it because one 
of the incidents that I omitted--and I apologize for omitting 
it--was the death of a Metro-North worker in West Haven, which 
was absolutely inexcusable. The controller was a trainee, made 
the mistake of permitting the train to go on a track where work 
was in progress, and Metro-North had failed to institute 
rudimentary, long-available methods of alerting and 
preventing--alerting workers and preventing such tragedies.
    So, I'm going to ask you how well the railroads are doing 
in the safety of workers. And again, if any of the other folks 
on the panel want to comment, I open it to them, as well.
    Mr. Poupore. Thank you, Mr. Chairman, for your question.
    Unfortunately--I'm going to be truthful--I do not have a 
real good handle on the safety issues with rail there. I know 
what we do in other forms of construction and how safety is 
predominant with the crafts I represent and the training that 
they go through. I'm kind of shocked that you can have these 
kind of mistakes in the 21st century. So, I apologize that I 
don't have a better answer for you, and I will defer to my 
smart colleagues, here, who may actually have the answer to 
your question.
    Senator Blumenthal. And I recognize you may not have 
immediate answers. I would just suggest that safety is a 
priority as we do construction, but also as we prepare 
infrastructure for the future, because we're going to have to 
deal with positive train control, which has a deadline. There's 
a lot of pushback from the industry on that issue. Positive 
train control is definitely a safety issue. And when we talk 
about investment in infrastructure, it's going to be front and 
center.
    Mayor Martin?
    Mr. Martin. I haven't seen closely what management was at 
Metro-North, which has been most of my testimony. But, what I 
do know is that those lines on the Metro-North line, the--there 
are four rail lines in most locations, and they are--as they 
were built in--over 100 years ago, those lines are actually a 
little bit closer together than what is the standard today. And 
one of the failures of management was--is that, in too many 
locations, they were running those trains too fast, given how 
close the lines are together. And that's part of the challenges 
we're having now with the schedules having to change and the 
uncertainty, because the rail regulations have come back and 
said, ``Hey, wait a minute, you can't go more than 35 miles an 
hour,'' and it's not just around curves, it's around the fact 
that the rails are a little bit too close together.
    So, I happened to at least see in that a failure to enforce 
or recognize the safety issues, which might be unique to that 
line, simply because it was built so long ago. And, as you 
know, that was, in fact, one of the problems, was too much 
speed on one line, and on another line, I think there was 
something about--they were so close together. But--so, that's 
a--it's a signal that you're absolutely right about the 
direction you're taking this.
    Senator Blumenthal. I don't think they were unique to that 
line. I think they are common to many railroads around the 
country. And one of the major obstacles to higher-speed rail 
is, in fact, the configuration of the tracks. And one of the 
obstacles to multimodal use of the rails is, in fact, the 
decaying tracks that we have and also tracks that were built in 
the last century for the last century's freight cars, as well 
as passenger cars, so they are--can't carry the weight. And the 
derailment in Bridgeport was due to, in fact, the failure of a 
joint, which, in turn, resulted from the lack of ballast 
holding up the tracks. That's an opinion that I think is 
founded on statements made by the National Transportation 
Safety Board--they have not issued their report yet, but I 
think that it's fruitfully confirmed that that is the cause.
    So, this issue of infrastructure has many different 
ramifications. And I think the consensus here--and it has been 
very powerfully stated--is that investment is key, and we need 
to find a way to do it on a bipartisan basis. I think you've 
all indicated that it's not about party. People don't care 
whether they're going through, as one of you said, a Republican 
or--I think you said it, Mayor James--or a Democratic district 
or State; they care about whether they're traveling safely and 
reliably. And that's why we have so much more in common than in 
conflict on this issue.
    So, I want to thank all of you for being here today. You've 
been very understanding of our schedule.
    I would suggest to the Ranking Member, if he has more 
questions, I'd be happy to continue----
    Senator Blunt. No, I'm grateful for everybody's time. It 
was a very helpful hearing, lots of helpful perspectives for 
us. And I'm walking away with about four really good new 
examples to talk about. And sometimes I can go a lot longer 
than a 2-hour hearing before I can get four things that I can 
carry away.
    I assume, Mayor Martin, the Hannibal Bridge, headed toward 
Hannibal, Missouri, where you cross the Mississippi River, 
which, if you're not from--is quite aways away, but I think 
that's where you cross the Mississippi, coming out of Illinois, 
which is, I guess, why you call it the Hannibal Bridge?
    Mr. Martin. I believe that Mark Twain's father was one of 
the original investors in the Hannibal to St. Joe Railroad. And 
what it did across the Mississippi--I believe you're correct, 
but I don't know--but then, when they built the bridge in 
Kansas City, causing the change in the rail to move away from 
St. Joe and down to Kansas City. And that's why it's the 
Hannibal Bridge on the western part of Missouri, even though 
Hannibal is on the eastern--right on the shore of the 
Mississippi. But----
    Senator Blunt. But, that's where you----
    Mr. Martin.--I believe you are correct.
    Senator Blunt.--cross the Mississippi River, right?
    Mr. Martin. Yes, I think you're right.
    Senator Blunt. And if I know anything about Mark Twain's 
father, if he invested, they lost money.
    [Laughter.]
    Mr. James. Senator, I think there's another part to that, 
too, that Kansas City acted and took advantage of and worked 
with its congressional delegation to make sure that the only 
money that would be used for that would be to Kansas City. I 
would encourage that same thinking right now.
    [Laughter.]
    Senator Blumenthal. I want to thank Mayor James and Mayor 
Martin particularly for using the power of history, and 
particularly references to Mark Twain, who, as you know, did 
most of his best writing in Hartford, Connecticut.
    [Laughter.]
    Senator Blumenthal. And I will just tell you, as a footnote 
to this hearing, that the Majority Leader of the U.S. Senate 
has a portrait of Twain behind his desk, because there's a very 
strong Nevada connection to Mark Twain, as well. So, you've hit 
all the right notes, here.
    [Laughter.]
    Senator Blumenthal. Again, my thanks to each of you.
    Just to concur with Senator Blunt, this record is very, 
very compelling, and you've helped us to make it with stories, 
which often move people more than statistics or abstract 
rhetoric. And those stories, I think, will reverberate 
powerfully among our colleagues, who are represented here 
through their staff and who will review this testimony.
    So, thank you very much.
    I'm going to permit the record to be open for a week, in 
case anybody has questions or if you have additional comments. 
And your statements will be made part of the record.
    Thanks so much.
    Hearing is adjourned.
    [Whereupon, at 4:50 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
